<html>
<title> - THE IMPACTS OF TRUMP POLICIES ON BORDER COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          THE IMPACTS OF TRUMP POLICIES ON BORDER COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 30, 2019
                               __________

                           Serial No. 116-13
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    
        Available via the World Wide Web: http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-452 PDF                 WASHINGTON : 2019  



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, 
                             AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Jon Barela, Chief Executive Officer, The Borderplex Alliance:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Efren Olivares, Racial and Economic Justice Director, Texas 
  Civil Rights Project:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Mark Seitz, Most Reverend Bishop, Catholic Diocese of El 
  Paso, Texas, U.S. Conference of Catholic Bishops:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. Mark D. Napier, Sheriff of Pima County, Southwestern Border 
  Sheriffs Coalition:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26

                             For the Record

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Statement of the Church World Service (CWS)....................    44
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  RESEARCH BRIEF, HOMELAND SECURITY OPERATIONAL ANALYSIS CENTER 
    (An FFRDC operated by the RAND Corporation under contract 
    with DHS)....................................................    45
  Statement of Leon N. Wilmot Chairman, Southwestern Border 
    Sheriffs Coalition...........................................    48

 
          THE IMPACTS OF TRUMP POLICIES ON BORDER COMMUNITIES

                              ----------                              


                        Tuesday, April 30, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
            Subcommittee on Border Security, Facilitation, 
                                            and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 310, Cannon House Office Building, Hon. Kathleen M. Rice 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Payne, Correa, Torres Small, 
Green of Texas, Higgins, Joyce, and Guest.
    Miss Rice. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order. The 
subcommittee is meeting today to receive testimony on the 
``Impacts of Trump Policies on Border Communities''.
    I want to thank our border advocates, business owners, and 
law enforcement officials who have joined us this morning for 
their willingness to testify and share their first-hand 
experiences living and working along our Southern Border.
    Earlier this month, I led a delegation to the U.S.-Mexico 
border to examine the reality of President Trump's increasingly 
restrictive border security and immigration policies. While in 
El Paso, our delegation was briefed by Customs and Border 
Protection (CBP) and Immigration and Customs Enforcement (ICE) 
on their current border operations.
    We also toured the El Paso ICE Processing Center, where 
hundreds of migrants are currently being held. In addition, we 
had the opportunity to visit the pedestrian-only Paso del Norte 
Port of Entry and the cargo-only Bridge of the Americas, where 
hundreds of millions of dollars in goods pass through every 
day.
    At both ports, we witnessed first-hand the severe slowdown 
of legal trade and travel as a result of this administration's 
policies, beginning with the reassignment of hundreds of CBP 
officers away from these ports. Even before this reassignment, 
our Nation's ports of entry--and particularly those in El 
Paso--were already woefully understaffed and CBP agents were 
struggling to keep up with the high volume of individuals and 
cargo passing through our border each day.
    The recent reassignment of CBP agents has only exacerbated 
an already dire situation. Wait times have reached record 
highs, creating a sense of wariness and uncertainty with our 
vital trade partners in Mexico. With fewer CBP agents on-hand 
to screen cargo, migrants, and travelers, our ports of entry 
are less secure than ever before, creating a serious National 
security threat.
    Last, but certainly not least, staffing shortages, 
reassignments, and inadequate training of CBP agents have led 
to the inhumane and haphazard treatment of asylum seekers and 
migrant families.
    As we saw just last month, DHS officials recently opted to 
house hundreds of migrants for several days under a bridge in 
unsanitary conditions. In another recent move, CBP abruptly 
released hundreds of migrant families into border communities, 
overwhelming local shelters and municipal services.
    While we were down in Texas, we had the opportunity to sit 
down with local advocates, asylum seekers, law enforcement 
officials, and business owners to discuss the impact that these 
policies were having locally, and specifically, how staffing 
shortages at our ports of entry were playing out on the ground 
in real time.
    We started our trip with a visit to the Annunciation House 
in El Paso, Texas, a nonprofit organization that has served as 
a way station for migrants for 40 years. It is run solely by 
volunteers and its services are supported entirely by private 
donations. After the administration implemented its policy of 
releasing hundreds of migrant families into border communities, 
the Annunciation House received anywhere from 500 to 850 
families each day.
    We also held a roundtable discussion with local business 
owners whose livelihood depended on cross-border trade. They 
described 10 miles of backed-up trucks in Mexico waiting for 25 
hours to cross into the United States.
    Finally, we heard from CBP agents themselves, who are 
stretched so thin that they worry they might miss something, 
either drugs, weapons, or something far worse.
    The administration's border policies, coupled with the 
President's threats to close the border altogether and its 
incendiary immigration rhetoric have created utter chaos and 
confusion at our ports of entry. They have made us less safe, 
they have undermined our trade partnerships, and they have put 
thousands of asylum seekers in harm's way.
    But make no mistake, this is not a funding issue or an 
issue of Congressional cooperation. Congress recently passed a 
bipartisan budget that would allocate $60 million to DHS to 
hire over 1,000 new CBP agents. The issue we face right now is 
a leadership and management problem. The anti-immigrant 
directives coming from the President, along with DHS officials 
that have been purged or rendered powerless by White House 
Senior Adviser Stephen Miller leave CBP and ICE rudderless and 
unaccountable to Congress.
    The Presidential memorandum issued last night is just 
another example of the White House attempting to unilaterally 
change our asylum laws while circumventing Congress.
    So today's hearing will give Members of this committee the 
opportunity to hear directly from some of the individuals 
living and working in our border communities. We will hear 
about how businesses, migrants, and advocacy groups and law 
enforcement officials have been affected by this 
administration's latest immigration and border policies.
    I want to thank all of our witnesses for joining us this 
morning.
    [The statement of Chairwoman Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                             April 30, 2019
    I want to thank our border advocates, business owners, and law 
enforcement officials who have joined us this morning for their 
willingness to testify and share their first-hand experiences living 
and working along our Southern Border. Earlier this month, I led a 
delegation to the U.S.-Mexico border to examine the reality of 
President Trump's increasingly restrictive border security and 
immigration policies. While in El Paso, our delegation was briefed by 
Customs and Border Protection (CBP) and Immigration and Customs 
Enforcement (ICE) on their current border operations. We also toured 
the El Paso ICE Processing Center where hundreds of migrants are 
currently being held. In addition, we had the opportunity to visit the 
pedestrian-only Paso del Norte Port of Entry and the cargo-only Bridge 
of the Americas, where hundreds of millions of dollars in goods pass 
through every day.
    At both ports, we witnessed first-hand the severe slowdown of legal 
trade and travel as a result of this administration's policies, 
beginning with the reassignment of hundreds of CBP officers away from 
these ports. Even before this reassignment, our Nation's ports of 
entry--and particularly those in El Paso--were already woefully 
understaffed and CBP agents were struggling to keep up with the high 
volume of individuals and cargo passing through our border each day. 
The recent reassignment of CBP agents has only exacerbated an already 
dire situation. Wait times have reached record highs, creating a sense 
of wariness and uncertainty with our vital trade partners in Mexico. 
And with fewer CBP agents on-hand to screen cargo, migrants, and 
travelers, our ports of entry are less secure than ever before, 
creating a serious National security threat.
    And last but certainly not least, staffing shortages, 
reassignments, and inadequate training of CBP agents have led to the 
inhumane and haphazard treatment of asylum seekers and migrant 
families. As we saw just last month, DHS officials recently opted to 
house hundreds of migrants for several days under a bridge in 
unsanitary conditions. In another recent move, CBP abruptly released 
hundreds of migrant families into border communities, overwhelming 
local shelters and municipal services. While we were down in Texas, we 
had the opportunity to sit down with local advocates, asylum seekers, 
law enforcement officials, and business owners to discuss the impact 
that these policies were having locally, and specifically how staffing 
shortages at our ports of entry were playing out on the ground, in real 
time.
    We started our trip with a visit to the Annunciation House in El 
Paso, Texas, a non-profit organization that has served as a way station 
for migrants for 40 years. It's run solely by volunteers and its 
services are supported entirely by private donations. After the 
administration implemented its policy of releasing hundreds of migrant 
families into border communities, the Annunciation House received 
anywhere from 500 to 850 families each day. We also held a roundtable 
discussion with local business owners whose livelihood depended on 
cross-border trade. They described 10 miles of backed-up trucks in 
Mexico waiting for 25 hours to cross into the United States. And 
finally, we heard from CBP agents themselves, who were stretched so 
thin that they worried they might miss something: Either drugs, 
weapons, or something far worse. The administration's border policies 
coupled with the President's threats to close the border altogether and 
his incendiary immigration rhetoric have created utter chaos and 
confusion at our ports of entry. They have made us less safe, they have 
undermined our trade partnerships, and they have put thousands of 
asylum seekers in harm's way.
    But make no mistake, this is not a funding issue, or an issue of 
Congressional cooperation. Congress recently passed a bipartisan budget 
that would allocate $60 million to DHS to hire over 1,000 new CBP 
agents. The issue we face right now is a leadership and management 
problem. The anti-immigrant directives coming from the President along 
with DHS officials that have been purged or rendered powerless by White 
House Senior Advisor Stephen Miller, leave CBP and ICE rudderless and 
unaccountable to Congress. The Presidential Memorandum issued last 
night is just another example of the White House attempting to 
unilaterally change our asylum laws while circumventing Congress. So, 
today's hearing will give Members of this committee the opportunity to 
hear directly from some of the individuals living and working in our 
border communities. We will hear about how businesses, migrants, and 
advocacy groups and law enforcement officials have been affected by 
this administration's latest immigration and border policies.

    Miss Rice. I now recognize the Ranking Member of the 
subcommittee, the gentleman from Louisiana, Mr. Higgins, for an 
opening statement.
    Mr. Higgins. Thank you, Madam Chair. I thank our witnesses 
for being here.
    The crisis at our Southern Border is worsening by the day 
and is a result of decades of Congressional inaction, or 
inadequate action, and loopholes in our current laws. Combined, 
they leave us ill-prepared to handle this crisis.
    This fiscal year, Customs and Border Protection is on track 
to apprehend the highest number of illegal migrants since 2008, 
a number greater than the entire population of the city of New 
Orleans in my home State of Louisiana.
    Border Patrol processing facilities were not built to house 
families and children, which we are seeing in record numbers, 
of course, and El Paso, Rio Grande Valley, and Yuma facilities 
are all far beyond capacity. Migrants are telling Border Patrol 
agents that they are bringing children because smugglers have 
told them they will be released if they do. This raises serious 
safety concerns and heightens the risk of human trafficking.
    According to the Customs and Border Protection, there have 
been over 3,000 cases since April 2018, where an adult claiming 
to be a parent or legal guardian of a child was found not to 
be. Groups of more than 100 migrants are arriving at the 
Southwest Border at unprecedented levels. Over the last 6 
months, 104 groups of that size have been encountered by CBP. 
Comparatively, there were only two such groups in all of 2017.
    In the past 4 months, Border Patrol agents have spent more 
than 100,000 man hours transporting migrants to hospital. This 
takes these agents off the line of duty.
    This crisis is fueled by a combination of loopholes in our 
immigration laws which we must fix, and a backlog in 
immigration courts that prevent consequences from being 
delivered to those illegally entering our country without 
legitimate asylum claims.
    The situation at the border is so bad that the CBP Office 
of Field Operations has reassigned over 500 officers from land 
ports of entry to help Border Patrol with processing. This has 
led to increased wait times for legal travel and trade. This 
diversion of resources poses a serious risk to individuals that 
man the border and risk of individuals slipping through our 
border who wish to do harm to this Nation. It is a concern.
    Last month, CBP and ICE told Congress that due to resource 
constraints, they no longer have the ability to process, 
transport, and detain all migrants attempting unauthorized 
entry at the Southwest Border. They just can't handle the flow. 
They are being forced to release families into local border 
communities without screening them for credible fear or 
outfitting adults with GPS tracking bracelets.
    Right now, there are no consequences to entering our 
country illegally. This only encourages illegal immigration and 
puts both Americans and migrants at risk. The nongovernmental 
organizations, or NGO's, that Customs and Border Protection and 
ICE usually partner with to house overflows of migrants have 
been pushed beyond their own capacity. There is no relief 
without additional resources from Congress.
    As a result, our local border communities are becoming 
overwhelmed and overrun. Sheriff Napier can tell us first-hand 
that border sheriffs are seizing the largest volume of drugs 
they have seen in years, and are increasingly coming across 
migrants that have made it past Border Patrol who need 
immediate humanitarian assistance.
    We are a Nation of law in order. However, this is chaos 
that we face at the Southern Border. Without changing the laws 
and providing the Department of Homeland Security adequate 
resources to address these issues, we are tying the hands of 
the men and women we have entrusted to keep the homeland safe. 
This crisis is diminishing American safety, security, economic 
prosperity, and the integrity of our Southwest Border. We must 
address it head-on or it will continue to get worse.
    I am looking forward to hearing testimony from our 
witnesses about the impact of this crisis on border 
communities.
    I yield back, Madam Chair.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             April 30, 2019
    Today we have gathered to discuss the ``Impacts of Trump Policies 
on Border Communities.'' This conversation will no doubt contain 
accusations and falsehoods designed to disparage President Trump and 
push false rhetoric that the border crisis is ``manufactured.''
    Therefore, I'd like to set the record straight, the crisis at our 
Southwest Border is worsening by the day and is the result of decades 
of Congressional inaction. Loopholes in our current laws have made us 
ill-prepared to handle this crisis.
    This fiscal year CBP is on track to apprehend the highest number of 
migrants since 2008, a number greater than the entire population of New 
Orleans.
    Border Patrol processing facilities were not built to house 
families and children, which we are seeing in record number. The El 
Paso, Rio Grande Valley, and Yuma facilities are all at more than 100 
percent capacity.
    Migrants are telling Border Patrol agents that they are bringing 
children because smugglers have told them they will be released if they 
do. This raises serious safety concerns and heightens the risk of human 
trafficking.
    According to CBP there have been over 3,000 cases since April 2018 
where an adult claiming to be a parent or legal guardian of a child was 
found not to be.
    Groups of more than 100 migrants are arriving at the Southwest 
Border at unprecedented levels. Over the last 6 months, 104 groups of 
that size have been encountered by CBP. Comparatively, there were only 
2 such groups in all of 2017.
    In the past 4 months, Border Patrol agents have spent more than 
100,000 hours transporting migrants to hospitals, taking them off the 
line of duty.
    This crisis is fueled by a combination of loopholes in our 
immigration laws and backlog in our immigration courts that prevent 
consequences from being delivered to those illegally entering our 
country without legitimate asylum claims.
    The situation at the border is so bad that the CBP Office of Field 
Operations has reassigned over 500 officers from land ports of entry to 
help Border Patrol with processing, which has led to increased wait 
times for legal travel and trade.
    This diversion of resources poses a serious risk of individuals 
slipping through our border who wish to do harm to this Nation.
    Last month, CBP and ICE told Congress that due to resource 
constraints, they no longer have the ability to process, transport, and 
detain all migrants attempting unauthorized entry at the Southwest 
Border.
    They are being forced to release families into local border 
communities without screening them for credible fear, or outfitting 
adults with GPS tracking bracelets.
    Right now there are no consequences to entering our country 
illegally. This only encourages illegal immigration and puts both 
Americans and migrants at risk.
    The non-governmental organizations (NGO's) that CBP and ICE usually 
partner with to house overflow of migrants are now pushed past 
capacity.
    There is no relief without additional resources from Congress. As a 
result, our local border communities are becoming overwhelmed and 
overrun.
    Sheriff Napier can tell us first-hand that border sheriffs are 
seizing the largest volume of drugs they've seen in years and are 
increasingly coming across migrants that have made it past Border 
Patrol who need immediate humanitarian assistance.
    We are a Nation of law and order, however, this is chaos. Without 
changing the laws and providing the Department of Homeland Security 
adequate resources to address these issues, we are tying the hands of 
the men and women we have entrusted to keep the homeland safe.
    This crisis is diminishing American safety, security, economic 
prosperity, and the integrity of our Southwest Border. We must address 
it head-on or it will continue to get worse.
    I am looking forward to hearing testimony from our witnesses about 
the impact of this crisis on border communities, and I yield back the 
balance of my time.

    Miss Rice. Thank you, Mr. Higgins.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 30, 2019
    Today's witnesses are experts on life at the border--they live 
there and their work brings them into constant contact with events 
there every day. I am eager to hear about what they are witnessing 
first-hand, their thoughts on the humanitarian challenge at the border, 
and the impact of the Trump administration's border policies on their 
communities. To say I am concerned with President Trump's and the 
Department of Homeland Security's misguided, counterproductive actions 
would be an understatement. No other administration has carried out a 
policy to deliberately and systematically separate all migrant children 
from the adults that care for them.
    The Trump administration's family separation policy has irreparably 
damaged children. The administration is claiming that reuniting 
families it separated in 2017 would be ``onerous'' and could take up to 
2 years. This is outrageous. Equally outrageous is the White House's 
agenda to cut off avenues of humanitarian relief to people seeking 
asylum and refuge. The administration has tried--and failed--multiple 
times to change our asylum laws on its own, only to be blocked by the 
courts. To consider levying fees on individuals fleeing dire conditions 
in their home countries is cruel and completely blind to the reality 
these individuals are facing. Another example of the Trump 
administration's blindness to reality is the President's continued 
obsession with the wall.
    Building it will not stop the majority of dangerous drugs that are 
coming through our legal ports of entry. Moreover, the President never 
talks about the American families who will be thrown off the land their 
family has had for generations. To make matters worse, the President 
continues to threaten to shut down the border, which would be 
devastating not just for border communities, but for our Nation's 
economy. Indeed, the economic consequences for this country would be 
catastrophic. The Chamber of Commerce in San Diego estimated the 5-hour 
shutdown last November at San Ysidro port of entry cost its 700 
businesses at least $5.3 million. I shudder to think what the fallout 
would be of ending $1.7 billion in trade each day. Our border 
communities have thousands of people who cross the border all the time 
to go to work, go to school, and see family. There are an estimated 
500,000 border crossings each day. All of that would grind to a halt if 
President Trump has his way.
    So, I am especially pleased to hear from these witnesses today. 
They will be able to give us their personal and professional views of 
the border as people who live there and deal with the impacts of 
policies set in Washington, DC on a daily basis. The proposals and 
actions carried out by the Department to date are inadequate, and 
sometimes harmful, for actually trying to address the root problems at 
our Southern Border. What we discuss today will help the committee 
address the issues at the border in a productive manner. Committee 
Democrats intend to advocate for smart, effective, and humane 
alternatives to handling this humanitarian challenge occurring at the 
border.

    Miss Rice. Additionally, I ask unanimous consent that the 
Members of the full committee shall be permitted to sit and 
question the witnesses as appropriate.
    Without objection, so ordered.
    I welcome our panel of witnesses.
    Our first witness, Mr. Jon Barela, is the CEO of The 
Borderplex Alliance, a nonprofit organization dedicated to 
economic development and policy advocacy in the Ciudad Juarez, 
El Paso, and southern New Mexico region.
    Prior to becoming a CEO of the alliance in 2016, Mr. Barela 
served as New Mexico's economic development cabinet secretary, 
where he led unprecedented efforts to develop and attract 
investments to the North American Borderplex and increase trade 
with Mexico. He has also worked at Intel Corporation and at 
Modrall-Sperling Law Firm. Mr. Barela has an international 
relations degree with honors from Georgetown University's 
School of Foreign Service.
    Next, we have Mr. Efren Olivares. Mr. Olivares is the 
racial and economic justice director at the Texas Civil Rights 
Project. Mr. Olivares handles and supervises cases in State and 
Federal court involving institutional discrimination, 
Constitutional violations, immigrants' rights, disability and 
economic rights, among others. Mr. Olivares joined TCRP's South 
Texas office in 2013 after working at the Inter-American 
Commission on Human Rights and at Fulbright & Jaworski, LLP. He 
is a graduate of the University of Pennsylvania and Yale Law 
School.
    Next, we have Bishop Mark Seitz, who has been bishop of the 
Diocese of El Paso since 2013. He has served on the Diocesan 
Liturgical Commission and the Committee for Continuing 
Education of Priests. He is a member of the Presbyteral Council 
and the College of Consultors in the diocese of Dallas. Bishop 
Seitz was named a Prelate of Honor, a Monsignor, by His 
Holiness Pope John Paul II in December 2004. Bishop Seitz is 
also an author, and in 2017 released Sorrow and Mourning Flee 
Away: Pastoral Letter on Migration to the People of God in the 
Diocese of El Paso.
    Finally, we have Sheriff Mark Napier, the sheriff of Pima 
County, Arizona. He started his law enforcement career in 
December 1981 as a police officer in Iowa, before moving to the 
Tucson Police Department in 1987, where he eventually retired. 
He then served as the assistant director for the Glendale, 
Arizona, police department and worked for the Department of 
Justice as a peer reviewer on Federal grant programs. He is 
here today as a member and representative of the Southwestern 
Border Sheriff's Coalition, which represents 31 counties along 
the U.S.-Mexico border.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, and we will start with Mr. Barela.

     STATEMENT OF JON BARELA, CHIEF EXECUTIVE OFFICER, THE 
                      BORDERPLEX ALLIANCE

    Mr. Barela. Well, thank you, Madam Chair. It is an absolute 
privilege to be here. Thank you for the invitation.
    Members of the committee, thank you also for our ability to 
testify today.
    The Borderplex Alliance is, to my knowledge, the only 
privately-funded organization that serves as the policy 
advocacy and economic development arm for our region. Our 
region consists of 2.5 million individuals, as the Chairwoman 
stated, Ciudad Juarez, El Paso County, and Dona Ana County, New 
Mexico, my home county, are really, the crux and, to me, the 
heart of trade for the United States.
    In fact, almost one-fifth of the trade between the United 
States and Mexico occurs through our various ports of entry. 
Eighty-two billion dollars in the last year of trade occurred 
through our ports of entries in the region. We, in many ways, 
style ourselves as the gateway of trade for the Americas.
    So it is clear that the symbiotic relationship that we have 
with our southern neighbor is important to our region. But this 
morning, I would like to explain how the symbiotic nature of 
the relationship between the United States and Mexico provides 
between 5 to 6 million American jobs, collectively, in all of 
your States, over 1.2 million jobs.
    Let me state at the outset that I believe firmly that 
Mexico is an economic and strategic ally of the United States. 
It is not a foe. As I mentioned, between 5 and 6 million 
American jobs rely directly on trade with Mexico. It has just 
recently become the No. 1 trading partner for the first 2 
months--the No. 1 trading partner, eclipsing China and Canada--
No. 1 trading partner, again, of the United States.
    What we are experiencing along the border, however, 
threatens the economic security of our country. Our country is 
doing very well. We are at full employment. Our region reflects 
that. El Paso's unemployment rate is below 4 percent, at 3.9 
percent, and even in Ciudad Juarez, the unemployment rate is at 
3.6 percent.
    Second thesis I would like to put out today is that trade 
is not a zero-sum game. As I have said many, many times, a job 
created in Ciudad Juarez ought to be a job created in the 
United States. Unfortunately, we are experiencing right now, 
with the difficulties that are currently being experienced, is 
creating economic devastation, potentially, for our area.
    Two particular circumstances, the gentleman who runs a 
medical device industry has recently had to furlough because of 
the supply chain in Ciudad Juarez and New Jersey--he has had to 
furlough dozens of workers in New Jersey and move those to 
Eastern Europe.
    A second individual owns an auto supply scrap business. He 
takes scrap material, scrap iron and metals, provides them to 
industries in Mexico which then form them into auto parts, is 
currently operating at 20 percent capacity and he has had to 
furlough employees.
    He explained to me that, if these supply parts, these parts 
that go into automotive production in the United States, is not 
provided on time, it will have a very, very adverse effect on 
automotive production in the United States.
    So as we move forward--and I do appreciate the comments 
made by the Chairwoman and the Ranking Member, Congressman 
Higgins. We appreciate that very much. We are in total 
agreement that the ripple effect could turn into a tsunami for 
the United States if we don't solve these wait times, which we 
are currently experiencing between 8 and 24 hours, as we speak. 
We simply cannot do business in our region, nor can the United 
States afford this sort of ripple effect, which, again, will 
become an economic tsunami if we are not careful.
    We must remain competitive as a North American region, and 
we must provide the adequate resources in a bipartisan, 
pragmatic way to help the courageous officers that we have 
working these very difficult issues day in and day out.
    The last thing I will say before my formal comments are 
done is that this has been an issue that has been decades in 
the making. For many, many years we have said that our ports of 
entry have been woefully inadequately funded. It is not a 
mutually exclusive idea to secure our borders, which we all 
support, and to facilitate legitimate commerce.
    So therefore we urge, respectfully, that significantly more 
resources be put in to help infrastructure along our ports of 
entry in the Southern Border. With that, Madam Chair, I 
appreciate very much the ability to be here. Thank you so much 
for the honor and privilege to do so.
    [The prepared statement of Mr. Barela follows:]
                    Prepared Statement of Jon Barela
                             April 30, 2019
    Madam Chair and Members of the committee: It is a great honor and 
pleasure for me to testify today before this esteemed committee. The 
Borderplex Alliance is a nonprofit organization dedicated to economic 
development and policy advocacy in the El Paso, Texas; Las Cruces, New 
Mexico; and Cd. Juarez, Chihuahua region.
    Located in a gateway for international trade, The Borderplex 
Alliance is the go-to resource for regional ideas, information, and 
influence. We are supported by a coalition of over 250 businesses, 
community and civic leaders, all with a shared vision--bringing new 
investment and jobs to the Borderplex region and creating a positive 
business climate.
    The Borderplex Alliance provides regional, National, and 
international development, advocacy, representation, and support to 
businesses looking to expand their operations within the Borderplex 
region. The organization also serves as an advocate for the region in 
State and National capitals, promoting the economic prosperity of the 
region and the strength of the U.S.-Mexico relationship.
    My message today is simple. The U.S.-Mexico border is a dynamic and 
critical economic driver for the United States. Investing in 
infrastructure at our ports of entry and prioritizing the facilitation 
of legitimate trade and travel between the United States and Mexico 
will pay significant dividends for our economy.
    We need a bipartisan, economically prudent approach to legislation 
impacting the U.S.-Mexico border. Doing so will improve North America's 
economic competitiveness, help secure the border, and address the 
migration crisis in a way that treats migrants with dignity and respect 
while following U.S. law and keeping within the best traditions of our 
Nation. When considering legislation related to the U.S.-Mexico border, 
please keep in mind these three compelling points.
    First, Mexico is an economic and strategic ally of the United 
States, not a foe. Mexico is currently our third-largest goods trading 
partner. In 2018 the total U.S. goods and services traded with Mexico 
reached $671.0 billion. In 2017 Mexico invested $18.0 billion in the 
United States. This trade and investment on both sides of the border 
result in a symbiotic relationship with sophisticated supply chains 
that route goods back and forth across borders and ultimately to 
consumers around the world. This trade and investment is not a zero-sum 
game. It creates jobs, hope, and opportunity on both sides of the 
border.
    In the Midwest, more than 700,000 jobs directly rely on trade with 
Mexico. Nationally, that figure is between 5 and 6 million. That is why 
the ratification of United States-Mexico-Canada Agreement is so 
critical to keeping this fruitful relationship between our great 
nations. The Borderplex region is the at the heart of the relationship 
and is the gateway of trade for the Americas. El Paso ports saw $81.9 
billion worth of trade in 2018, up 5.1 percent from in 2017. Investing 
in and modernizing these ports should be a priority to help make wait 
times more predictable and shorter. It will also make the Nation more 
prosperous.
    Second, urgently-needed infrastructure improvements not only 
facilitate legitimate commerce, but it also helps secure the southern 
frontier. Securing the border and facilitating trade are not mutually 
exclusive. Every minute $1 million worth of goods and services are 
traded between the United States and Mexico. As I testify before you 
today, delays and unpredictable wait times at are our ports of entry 
are devastating business along the border and across the Nation. I've 
heard from multiple companies operating at 20-50 percent capacity, 
waiting 12-24 hours to get their shipments through the ports of entry.
    One employer is furloughing hundreds of employees and reducing 
their hours. This employer is a canary in the coal mine for global 
supply chains. He is a scrap metal supplier. His goods make their way 
into auto parts. He tells us that due to the delays in crossing the 
ports of entry, companies in Mexico are making fewer goods and thus 
less scrap metal. These conditions create a ripple effect through the 
National economy that could turn into a tsunami of potential job losses 
in the United States.
    The unpredictable and unacceptably long wait times are causing 
another member company of the Borderplex Alliance to move jobs from a 
plant in New Jersey to a facility in Eastern Europe in order to ensure 
continuity of product availability in the U.S. market. His products are 
life-saving medical equipment, such as heart stents used in the United 
States.
    The cadence and flow of tractor trailers that travel back and forth 
between the United States and Mexico, first with raw materials and then 
with finished goods is part of the rhythm of investment and jobs. 
Disruptions in trade cause factories to slow or halt production, reduce 
hours or jobs, and create the conditions that result in emigration from 
the South to the North.
    Long and unpredictable wait times at the ports of entry have been a 
problem on the border for decades. It is a bipartisan problem that 
should have been solved years ago. Only now, however, with the threat 
to shut the Southern Border, this problem has become a National 
economic security concern. I suggest Congress use the President's $5.7 
billion funding request for a border wall to:
  <bullet> Hire more CBP officers;
  <bullet> Invest in advanced technology at our ports; and
  <bullet> Increase staffing at our ports during peak hours.
    Third, we need a humane, rational, and long-term solution that 
works for immigrants and U.S. citizens alike. Immigration is a complex, 
multidimensional issue with economic push and pull factors at its 
heart. But when as a Nation we embrace trade, globalization, and a 
rules-based international order we can increase opportunity for 
everyone. I urge the Members of this committee to help us address this 
specific problem locally and more broadly work across the aisle to fix 
our broken immigration policies on the Federal level. Specifically, I 
believe Congress should:
  <bullet> Streamline legal immigration;
  <bullet> Clarify our asylum laws;
  <bullet> Hire more immigration judges;
  <bullet> Co-locate immigration processing centers with immigration 
        courts;
  <bullet> Create a special envoy to the North Triangle Countries to 
        help rebuild civil society and institutions; and
  <bullet> Work in a multilateral fashion with governments and 
        international organization such as the Organization of American 
        States, and others.
    This crisis is creating local challenges as well. Several weeks 
ago, the Federal Government issued a request for proposal for a new 
$192 million migrant processing center in the Border Patrol El Paso 
Sector (El Paso County, Hudspeth County, and the State of New Mexico). 
Due to the dramatic spike in asylum seekers from the Northern Triangle 
of Central America (Guatemala, Honduras, and El Salvador), the 
processing center is slated to be open as soon as June. While the 
situation on the ground is urgent, it is paramount that we get this 
right.
    A quick retrofit of a former manufacturing plant will not produce a 
quality facility that reflects our community's values or those of the 
hardworking and brave agents and officers of the Border Patrol and 
Customs and Border Protection. Rather than hastily retrofit a vacant 
industrial warehouse, the Federal Government should design and build a 
new facility, purpose-built, to process migrants. Given the 
humanitarian crisis, it is possible to move swiftly and construct a 
custom-built facility. Moreover, while looking for a processing center 
location, the Federal Government should consider the entire El Paso 
Sector, including Hudspeth County, the State of New Mexico, and all of 
El Paso County. While we recognize the urgent need for a migrant 
processing center, the solution to this complex problem cannot be 
another quickly-built, ill-conceived facility like the ones reported on 
by the National media. Neither El Pasoans nor the migrants are well-
served by a rushed, reactive response that keeps children in cages and 
has hundreds of families sleeping on the floor of an empty warehouse. 
Let's work together to find a better solution.
                               conclusion
    Ladies and gentleman of the committee I want to thank you for the 
opportunity to speak before you today on this important topic. I want 
to particularly thank Chairwoman Rice who recently led a Congressional 
delegation to El Paso to see first-hand the issues we discussed here 
today. It has been a pleasure to address you all today, and I look 
forward to answering your questions.
    Thank you.

    Miss Rice. Thank you, Mr. Barela.
    Mr. Olivares.

   STATEMENT OF EFREN OLIVARES, RACIAL AND ECONOMIC JUSTICE 
              DIRECTOR, TEXAS CIVIL RIGHTS PROJECT

    Mr. Olivares. Thank you, Madam Chair.
    Good morning. It is my pleasure to be here providing 
testimony before this committee this morning. I am an attorney 
with the Texas Civil Rights Project. My office represents 
landowners whose land the Government is trying to condemn in 
order to build a border wall in the Rio Grande Valley in south 
Texas.
    Our office has represented these landowners for over 10 
years now, since the 2008 border fence wave of condemnations.
    This morning I want to touch on, briefly, two types of 
impact that this policy is having on border communities, 
particularly in the Rio Grande Valley.
    First, the eminent domain process and how it leaves 
landowners wondering how they can oppose a taking of their land 
by the Federal Government, and second some of the broader 
impacts that the border wall will have on border communities 
and it is already having.
    When the Government identifies a property where they want 
to build the border wall, they first try to purchase it from 
the landowner voluntarily. They make an offer of sale. 
Historically, those offers have been woefully below market 
value.
    Now, how far below market value? One of the cases that our 
office handled, the initial offer was for $100 for 1.3 acres of 
land in Cameron County. The case ended up settling for $56,000. 
That is a multiple of 560 times the value of the land. That is 
not atypical.
    Part of the problem is that the initial offer of purchase 
from the Government doesn't have to be backed up by a formal 
appraisal. So the Government can make any offer it wants, and 
especially if the landowner is not represented, they have a 
very hard time defending against--in those processes.
    Another important piece of the process is that in virtually 
every case, the Government tries to get physical possession of 
the land before the issue of just compensation is resolved. 
Unfortunately, the eminent domain process allows for that. 
Federal courts routinely grant the Government physical 
possession of the land before the landowner has received a dime 
for their property.
    This has resulted in dozens of landowners having lost the 
land to the Government, having the border wall built literally 
on their backyard, and then, years later, not have received a 
single dollar for that as just compensation, as required by the 
Fifth Amendment.
    Such is the case of Ms. Maria Garcia in the city of San 
Benito in Cameron County. The border fence was built on her 
backyard back in 2012, and Ms. Garcia unfortunately passed away 
in November 2017 and never received a dime for her property.
    Many other landowners, including some of our clients, have 
been in the process for over 10 years and the Government has 
changed how much of their property it wants to take, and the 
landowners have been living with the uncertainty looming over 
their heads without having received any compensation in more 
than 10 years by now.
    Another important factor that makes the eminent domain 
process terribly unfair to the landowners is the fact that the 
Secretary of Homeland Security can waive all laws, except for 
the Constitution and treaties, but every other law--the 
Secretary of Homeland Security can waive pursuant to a waiver 
authority granted by Congress--and it has been described as the 
broadest waiver authority ever granted by Congress--that allows 
him or her to waive every law. So that leaves the landowners 
not being able to challenge the taking, other than challenge 
the amount of just compensation.
    Now, on the effects that the border wall is going to have 
on the community, one thing that is often lost in the 
discussion is the fact that the wall is planned to be built 
many hundreds of yards from the actual border, from the river 
itself.
    So Professor Madsen from the Ohio State University has 
calculated that, in Texas alone, 43,000 acres are going to be 
walled off from the rest of the country. They are going to 
become no-man's-land. Of those 43,000 acres, 42,000 acres are 
in the Rio Grande Valley alone, which are the three counties in 
the southeastern-most tip of Texas: Cameron, Hidalgo, and Starr 
Counties.
    In those areas between what is going to become the wall and 
the river, the so-called no-man's-land, there are communities, 
there are neighborhoods, there are businesses that are going to 
be walled off from public utilities, from roads, public 
transportation, and everything that is on the northern side of 
the wall.
    Some landowners may get gates, but not all of them. Not 
everyone is going to get a gate, so not everyone gets access to 
their property.
    So imagine for a second if the Federal Government were 
walling off 43,000 acres of U.S. soil not along the Rio Grande 
but along the Potomac or along the Hudson. It would be a 
scandal. But in our community in south Texas, a majority 
Latino, Hispanic community, it is unfortunately something that 
we have become all too familiar. Our office will continue to do 
everything we can to represent these landowners so that they 
are treated fairly and with dignity.
    Thank you.
    [The prepared statement of Mr. Olivares follows:]
                Prepared Statement of Efren C. Olivares
                             April 30, 2019
    It is a great honor to testify before such a distinguished 
committee about the disastrous impact that a border wall would have on 
border communities in the Rio Grande Valley of Texas. Thank you for 
inviting me.
    For my testimony this morning, I draw from my work as director of 
the Racial and Economic Justice Program at the Texas Civil Rights 
Project (``TCRP''). We are Texas lawyers for Texas communities, serving 
the rising movement for equality and justice. Our Racial and Economic 
Justice Program fights against discriminatory policies and practices 
based on immutable characteristics and immigration status. Along the 
Texas-Mexico border, our team works tirelessly to bring separated 
families back together, to ensure accountability for wrongful acts by 
immigration agents, and to defend landowners whose land the Federal 
Government seeks to condemn in order to build a border wall. Through 
litigation, education, and advocacy, TCRP fights to ensure that the 
most vulnerable communities in our State, and especially along the 
border, can live with dignity, freedom, and without fear.\1\
---------------------------------------------------------------------------
    \1\ Learn more at texascivilrightsproject.org.
---------------------------------------------------------------------------
    I am a lawyer and an advocate, and also a member of the border 
community. My goal in this testimony is to highlight two significant 
ways in which the border wall negatively impacts border communities. 
First, I will discuss how the eminent domain process leaves affected 
landowners with little recourse to challenge the Government's takings. 
Eminent Domain law is extremely favorable to the Government, and when 
compounded by the expansive waiver authority given to the Secretary of 
Homeland Security, Texas landowners along the border are really left to 
wonder whether due process of law means anything for them. Second, I 
will touch upon some of the ways in which a border wall would forever 
alter the way families and communities live in this part of the United 
States. Families who have lived peacefully along the Rio Grande for 
centuries--in some cases even before the United States existed as a 
country--now stand to lose their land, their livelihood, and quite 
literally their way of life.
           i. the eminent domain process in border wall cases
    Most of the land along the Texas-Mexico border where the Government 
plans to build a border wall is owned by private landowners. Pursuant 
to the Fifth Amendment to the United States Constitution, the Federal 
Government can only take private land for public use if it pays the 
owner ``just compensation.'' U.S. Const. amend. V.
a. Right of Entry (ROE) Requests
    Once the Government identifies a piece of land where it plans to 
build the border wall, agents approach the landowner seeking his or her 
consent to survey the land, take soil samples, and conduct other 
precursory work on privately owned land. This typically happens via a 
letter, known as a Right of Entry (ROE) request. The letters are mailed 
to the owner of record at the address of the owner on file with the 
public property records.
    These letters will often be followed by in-person visits by the 
Army Corps of Engineers, who are accompanied by the Border Patrol 
agents. Landowners describe the in-person visits as both persuasive and 
misleading, where Government officials attempt to explain any intrusion 
as minimal and unimportant. Landowners have reported that some of these 
visitors have told them that the Government will eventually get 
possession of the land anyway, so it is of no use to fight the process. 
The maps attached as Appendix A show the status of ROE requests in 
Starr County, Texas, as of December 2018.\2\
---------------------------------------------------------------------------
    \2\ Although reliable information is hard to come by, Customs and 
Border Protection officials have indicated that over 90 percent of 
ROE's in Hidalgo County, and around 85 percent in Starr County were 
signed voluntarily. In Starr County, ownership of some tracts of land 
has still not been ascertained.
---------------------------------------------------------------------------
    When a landowner does not consent to signing the ROE letter, DHS 
refers the matter to the Department of Justice, and a lawsuit is filed 
against the tract of land at issue in Federal district court. The 
lawsuits have typically taken the form of a Complaint in Condemnation 
and Declaration of Taking filed pursuant to the Declaration of Taking 
Act, 40 USC  3114. These complaints consistently alleges that $100.00 
constitutes just compensation for access to the land for surveying and 
soil sampling purposes, regardless of the size of the land in question. 
As of April 25, 2019, the Trump administration has filed 12 such cases 
seeking access to survey land in South Texas, and dozens more, if not 
hundreds, are expected in the coming months, in light of the 
Congressional appropriations for fiscal year 2019. TCRP represents some 
of these affected landowners.
b. Acquisition of the Land
    After surveying is completed pursuant to the ROE, the Government 
will then seek to buy the part of the property it needs. This will be 
done by a letter requesting to buy the land for a price the Government 
determines. Historically, these initial offers have been significantly 
below market value.
    If the landowner refuses to sell, the Government will initiate 
eminent domain proceedings to take the land by filing a Complaint and 
Declaration of Taking pursuant to its authority under the Declaration 
of Taking Act (40 USC  3114) and acquisition by condemnation (40 USC  
3113).\3\ Historically, the Government typically has also deposited 
$100 as estimated ``just compensation''\4\ to acquire the property, 
regardless of the size or quality of the land. If the landowner fails 
to answer the lawsuit or challenge the alleged amount of just 
compensation, the Government can take the land for that amount. This 
happened in multiple cases in ``border fence'' cases filed by the 
Federal Government in 2008. As an example of how far below market value 
these initial offers are: In one case handled by TCRP, the initial 
offer was $100.00 for 1.3 acres of land, and the case ultimately 
settled for $56,000.
---------------------------------------------------------------------------
    \3\ In these initial filings, the Government argues that upon the 
filing of the Complaint, Declaration of Taking, and the depositing of 
the estimated ``just compensation,'' title of the subject property is 
immediately vested to the United States. However, we have argued that 
40 U.S. Code  3114(d) specifically authorizes the court to fix the 
time and terms under which a landowner will transfer possession of 
property to the Government. See 40 U.S. Code  3114(b)(1).
    \4\ As required by the Declaration of Taking Act, 40 U.S. Code  
3114.
---------------------------------------------------------------------------
    After filing the Complaint, the Government typically files a Motion 
for Order of Immediate Possession and a Motion for Expedited Hearing, 
seeking to obtain expedited access to the land. Importantly, the 
Government consistently seeks to take physical possession of the land 
before the issue of just compensation is resolved. As a result, there 
are dozens of landowners who have lost their land to the Government, 
the Government has built a border fence on their property years ago, 
and as of today, they have not received a dime in compensation for 
their land. Ms. Maria Garcia, in the city of San Benito, died years 
after the border fence was built on her property, without ever being 
compensated.
    In some instances, landowners have also endured the Government's 
indecision on border wall construction, leading to years of 
negotiations, back and forth over portions of the property to be 
condemned, with the uncertainty looming over their heads for over a 
decade now. Pamela Rivas, a landowner in Los Ebanos, Texas, whose 
property is situated by the last hand-drawn ferry on the United States-
Mexico border, has dealt with Government agents for well over 10 years 
now. Some years the Government only wanted a small slice of the 
property, others to bisect it in half, and now they want nearly all of 
her property. She still has not been compensated, and she still does 
not know how much of her land the Government wants. Our office 
represents her, and we will ensure she is treated fairly, despite the 
unconscionable amount of time this has taken.
    In other eminent domain takings, the landowner can challenge the 
authority for the taking, or the public use. In border wall cases, 
however, it is difficult to challenge the authority for the taking, 
since it is the Federal Government who takes it, pursuant to the Secure 
Fence Act of 2006, Pub. L. 109-367, H.R. 6061, and subsequent 
Congressional appropriations. Similarly, the Government alleges 
``National security'' reasons as the public purpose for the taking, and 
courts tend to defer to the Executive branch in matters of National 
security. Landowners are left with the possibility of challenging only 
the amount of just compensation.
    Under Federal Rule of Civil Procedure 71.1, a landowner may request 
a jury trial to decide the issue of just compensation. Of the 
approximately 334 eminent domain actions filed by the Federal 
Government in 2008 in the Southern District of Texas, not a single one 
went to trial. Most of them settled or were dismissed, and over 50 are 
still pending as of today.
        ii. the impact of the border wall on border communities
    The Rio Grande Valley contains some of the poorest areas of the 
country. The median incomes in the three southeastern-most counties in 
Texas, where border wall construction is scheduled to take place, are: 
$36,095 per year in Cameron County, $37,097 in Hidalgo County, $27,133 
in Starr County.\5\ Approximately 95 percent of the population in the 
region identifies as Latino or Hispanic.
---------------------------------------------------------------------------
    \5\ United States Census ``Quick Facts'' for Cameron, Hidalgo, and 
Starr Counties, available at https://www.census.gov/quickfacts/fact/
table/cameroncountytexas/PST045218, https://www.- census.gov/
quickfacts/fact/table/hidalgocountytexas/PST045218, and https://
www.census.- gov/quickfacts/fact/table/starrcountytexas/SEX255217.
---------------------------------------------------------------------------
    As we sit here today, construction--or, should I say, destruction--
activities have already begun. These activities have begun in 
Federally-owned land in the city of Mission, in Hidalgo County, Texas. 
Since this is Federally-owned land, the Government does not have to go 
through the condemnation process described above. But, those Federally-
owned lands happen to be wildlife refuges, particularly the ``La 
Parida'' Banco tract, part of the Lower Rio Grande Valley National 
Wildlife Refuge. As we sit here today, bulldozers have begun destroying 
that formerly protected wildlife sanctuary.
a. Waiver authority under the Real ID Act of 2005
    What allows the Government to build a wall on protected wildlife 
property? The answer is simple: The waiver authority Congress conferred 
on the Secretary of Homeland Security by the Real ID Act of 2005, Pub. 
L. 109-12, 119 Stat. 302, enacted May 11, 2005. The Real ID Act grants 
what has been described as the broadest waiver authority ever granted 
by Congress. It allows the Secretary of Homeland Security ``to waive 
all legal requirements such Secretary, in such Secretary's sole 
discretion, determines necessary to ensure expeditious construction of 
barriers and roads'' along the border. Pub. L. 109-12, 119 Stat. 302, 
Sec. 102(c). This waiver authority allows the Secretary of Homeland 
Security to waive every conceivable law, save the Constitution and 
treaties.
    Such broad waiver authority compounds the already unfavorable legal 
landscape that landowners face in these condemnation cases. Laws that 
would have made it illegal to build a border wall--from the Endangered 
Species Act to the Clean Water Act to the Religious Freedom Restoration 
Act and the American Indian Religious Freedom Act--have been waived by 
the Secretary, thereby depriving landowners of their rights under those 
laws. Whether it is called a wall, a fence, or a barrier, it will 
devastate border communities.
b. ``No man's land''--thousands of acres of U.S. soil walled off
    Additionally, the proposed path of the border wall, as reflected in 
Appendix B, is far away from the Rio Grande River. In some places, the 
wall would be more than half a mile from the actual border. The 
physical location of the proposed wall presents a series of problems.
    First, it belies the Trump administration's claim that the wall 
would stop people or contraband from entering the United States. People 
will still be able to enter United States soil, and in some areas walk 
hundreds of yards north before reaching the border wall. If criminal 
activity does take place, the vast area between the border wall and the 
river stands to become a ``staging area'' for such activity.
    Second, there are families, businesses, communities that lie on the 
area that will be walled off, the so-called ``no man's land'' between 
the border wall and the river. Professor Kenneth Madsen, from Ohio 
State University at Newark, has calculated that over 43,000 acres of 
land will be in no-man's land in Texas.\6\ Over 42,000 of those acres 
will be in the Rio Grande Valley alone. His maps depicting the 
thousands of acres of United States land that will be walled off from 
the rest of the country are attached as Appendix B.
---------------------------------------------------------------------------
    \6\ Professor Madsen's maps are available at: http://u.osu.edu/
madsen.34/maps/.
---------------------------------------------------------------------------
    Every person and every property located south of the wall will be 
blocked from access to public utilities, roads, public transportation, 
and their families on the other side of wall. Getting public utilities 
to the south side of the wall in the future will be prohibitively 
expensive. Many families stand to lose their livelihoods, as it may 
become impossible to raise cattle, farm, or lease out the riverfront 
property. Some riverfront tenants have already expressed that they 
intend not to renew their leases if the wall is built as planned.
    Such is the case of the Cavazos family. The Cavazos family has 
owned property along the Rio Grande in Mission, Texas, for decades. Mr. 
Fred Cavazos is paralyzed from the waist down, so he uses a wheelchair 
for mobility purposes. He makes a living by raising cattle and leasing 
out riverfront properties for recreational purposes. Several of his 
tenants have expressed that they may leave the premises if the wall is 
built on Mr. Cavazos's property. Mr. Cavazos's cousin, Mr. Rey 
Anzaldua, a Vietnam Veteran and retired U.S. Customs agent, also stands 
to lose access to this family property.\7\ Simply getting into his 
property will become a challenge for Mr. Cavazos: If the Government 
decides to install a gate on his property, he will have to maneuver his 
wheelchair-accessible van over the flood control levee, and into his 
property.
---------------------------------------------------------------------------
    \7\ TCRP represents Mr. Cavazos and Mr. Anzaldua in their eminent 
domain case.
---------------------------------------------------------------------------
    Typically, wealthy, influential, or politically-connected land 
owners have had gates installed on their property, to allow them access 
to the north side of the wall. Even in those cases, landowners have to 
negotiate whether they will receive a small, ``vehicle gate,'' or the 
larger, ``farming gate,'' more suitable for RVs, farming equipment and 
implements, cattle trailers, and other large vehicles. Unrepresented 
landowners rarely have a gate installed on their property.
c. Wall design and flooding risks
    According to the latest publicly-available plans, the Government 
plans to build a wall consisting of a concrete base, with 18-foot high 
steel bollards on top. In Hidalgo County, the Government plans to 
insert the concrete base into the existing flood control levee, up to 
the height of the levee, and then install the steel bollards atop that 
base. The bollards would be 6 inches wide, set 4 inches apart. In Starr 
County, where there are no flood-control levees, the Government plans 
to install the steel bollards at the surface level, with the concrete 
base buried into the ground.
    In addition to the border wall, the Government has indicated its 
intention to build an ``enforcement zone'' spanning 150 feet from the 
wall on the river side, in which all vegetation and structures would be 
cleared and demolished to make way for an all-weather road, 24/7 
lighting, sensors, and other Border Patrol operations.
    This wall design raises significant flooding concerns: (1) On the 
south side of the wall into Mexico; (2) in the walled-off ``no man's 
land;'' and (3) on the north side of the wall. The Rio Grande Valley is 
a hurricane zone, seeing an average of one significant hurricane every 
3 years, in addition to several tropical storms and tropical 
depressions. The last significant hurricane to hit the Rio Grande 
Valley was Hurricane Alex, in 2010, which flooded thousands of acres in 
the area for months.
    If the border wall is built as planned, it will unquestionably 
exacerbate flooding risks. First, if the Rio Grande River overflows, 
the wall will prevent water from flowing freely to the north, and it 
will flow disproportionately into Mexico and stagnate in the ``no-man's 
land.''
    Although the top portion of the wall is designed to be made of 
bollards, every flood carries with it debris, branches, and other solid 
materials and will quickly clog up the wall, blocking water from 
flowing freely.
    Similarly, even if the river does not overflow, in case of 
significant rain, the wall will prevent runoff water coming from the 
north side of the wall from flowing into the river. The same clogging-
up phenomenon will keep the water from being able to drain into the 
river, thereby flooding cities and towns where the wall is scheduled to 
be built, particularly in Starr County. Appendix C shows a flooding 
model of the expected effects of border wall construction in the city 
of Roma, Texas.
                  iii. conclusion and recommendations
    To those of us who live on the border, hearing the National debate 
around the border wall and the so-called ``border crisis'' and 
``National emergency'' is extremely frustrating. I am an advocate, but 
I am also a member of this community, a community that has been 
vilified, demonized, and constantly attacked by this President.
    The border is a welcoming, vibrant place, full of hardworking and 
resilient people from all walks of life. I am proud to live on the 
border. And it pains me to see how often it appears that politicians 
forget that the Rio Grande Valley is also part of the United States. 
Consider for a minute, if the Federal Government were planning to build 
infrastructure that would take hundreds of acres of land from U.S. 
citizens, not in South Texas, but in Washington or New York. How would 
people react if the Government were about to wall off 43,000 acres of 
United States soil, not along the Rio Grande, but along the Potomac or 
the Hudson? It would be a scandal. Yet for us in South Texas, this 
plunder and pillaging of our largely Latino and Mexican-American 
communities is, sadly, all too familiar.
    In light of the above, I recommend Congress take the following 
actions:
    1. Amend the Declaration of Taking Act, specifically 40 U.S.C. 
        3114(d), to require that a landowner receive full just 
        compensation, pursuant to a final judgment of a competent 
        court, before the Government can take physical possession of 
        the land;
    2. Revoke the waiver authority granted by the Real ID Act of 2005, 
        by amending section 102(c) of the Illegal Immigration Reform 
        and Immigrant Responsibility Act of 1996 (8 U.S.C. 1103 note);
    3. Do not appropriate any more money for the construction of border 
        walls, fences, barriers, ``enforcement zones,'' or any other 
        such infrastructure; and
    4. Require the Federal Government to conduct comprehensive Yellow 
        Book appraisals before filing a condemnation action against a 
        landowner related to the border wall.

    Miss Rice. Thank you, Mr. Olivares.
    Mr. Seitz.

STATEMENT OF MARK SEITZ, MOST REVEREND BISHOP, CATHOLIC DIOCESE 
     OF EL PASO, TEXAS, U.S. CONFERENCE OF CATHOLIC BISHOPS

    Bishop Seitz. I am the Catholic bishop of the Diocese of El 
Paso. I would like to thank the House Committee on Homeland 
Security and this subcommittee, as well as the subcommittee 
chair, Representative Rice, and Ranking Member Higgins, for the 
opportunity to testify today.
    In my Diocese of El Paso, I have witnessed an extraordinary 
community response to the increasing number of asylum-seeking 
families we have seen since November. Our community is being 
led in our response to provide respite for arriving asylum-
seeking families by a local entity, Annunciation House, whom 
you mentioned.
    In November, my diocese also made the choice to open two 
shelters, one on the grounds of the Diocesan Pastoral Center, 
and one located in downtown El Paso. We realized that without 
these shelters, asylum seekers would have no other option and 
be released to the streets with no place to go.
    We have seen many other parishes in El Paso and the 
neighboring diocese of Las Cruces open their doors to shelter 
immigrant families. These days, it is not unusual for our 
network of service providers to assist up to 600 to 1,000 
family members a day.
    While the lack of collaboration we often see between CBP 
and ICE makes our work that much more difficult, we welcome the 
opportunity to assist the families.
    I remember vividly when the first bus of asylum seekers 
arrived at our shelter. The families didn't know where they 
were going, many thinking that they were being transported to 
another detention facility. When they realized that they were 
being greeted and welcomed by shelter volunteers, I saw their 
joy and relief.
    I have seen first-hand through our work that the vast 
majority of these arriving families are fleeing violence and 
persecution, families forced to flee after receiving threats to 
their children, when the parents are unable to pay the demanded 
extortion fee, families threatened when sons and daughters 
refuse to join the local gang or become gang girlfriends.
    While there have been efforts to frame our existing laws 
and policies as pull factors for arriving families and 
children, this is not the case. Our efforts to treat these 
asylum seekers with justice and compassion are not pull 
factors, just as efforts to deter them are not dissuading 
children and families from fleeing.
    These families that we serve are extremely thankful for the 
assistance and compassion that they receive at our community 
respite centers. They are eager to comply with our laws in the 
United States and do not want to be a burden or pitied. Rather, 
they seek to be treated with dignity and given a chance to find 
protection, contribute to our country, and provide for their 
children.
    Unfortunately, there are serious concerns about the 
mistreatment families receive along the dangerous migration 
journey, and sometimes at the hands of U.S. Border Patrol. My 
brother bishops and I also remain deeply troubled by the 
administration's recent efforts to curtail the ability of 
asylum seekers arriving at the U.S.-Mexico border to seek 
protection.
    To be clear, the concern should not be primarily for the 
NGO's or our community. We are certainly stressed, but we are 
also blessed to be able to serve. The greater concern should be 
for those vulnerable children and families who are suffering 
greatly from the impact of our Government's often ill-conceived 
and heartless policies.
    Policies have consequences. The impact of the 
administration's recent policies can be measured in the injury 
and death of many whose only crime is that they fled here to 
preserve the lives of their families.
    I appreciate the subcommittee's attention to this important 
issue. I would ask you to consider the recommendations set 
forth in my written testimony. Our Nation has had a long and 
proud history of providing humane treatment to and due process 
for asylum seekers. We must reject policies and proposals that 
would abandon this tradition. I ask our Government to remember 
that those fleeing to our border are not the other, but people 
possessed of the same human dignity as we.
    The border wall and recent policy proposals focused on the 
border are treating a symptom and not a cause. They are a 
symbol of a failure on the part of our country to resolve the 
issues that could be dealt with by a comprehensive immigration 
reform.
    They are a response to our affluent Nation's unwillingness 
to love our neighbor, neighbor countries as well as the 
immigrant and asylum seeker. They are a sign of our broken 
relationship with God.
    This reinforced wall and inhumane policies will heal no 
wounds, solve no problems, but stand as a further scar on our 
land, and dividing our families, our cities, and our nations. 
Thank you.
    [The prepared statement of Bishop Seitz follows:]
                    Prepared Statement of Mark Seitz
                             April 30, 2019
    My name is Bishop Mark Seitz. I am the Catholic Bishop of the 
Diocese of El Paso, Texas and work with the U.S. Conference of Catholic 
Bishops' (USCCB) Committee on Migration. The Committee on Migration 
oversees the work of the Department of Migration and Refugee Services 
(MRS) within USCCB. On behalf of USCCB/MRS, I would like to thank the 
House Committee on Homeland Security and the Subcommittee on Border 
Security, Facilitation, and Operations, as well as the Subcommittee 
Chair Representative Kathleen Rice (D-NY) and Ranking Member 
Representative Clay Higgins (R-LA) for the opportunity to testify 
today.
    USCCB/MRS has operated programs, working in a public/private 
partnership with the U.S. Government, to help protect unaccompanied 
children from all over the world for nearly 40 years. The Catholic 
Church in the United States has also long worked to support immigrant 
families who have experienced immigrant detention, providing legal 
assistance and pastoral accompaniment and visitation within immigrant 
detention facilities, as well as social assistance upon release. In 
addition to the programmatic work of USCCB/MRS through its largely 
Catholic Charities network, Catholic entities at the U.S./Mexico border 
have long provided humanitarian assistance and respite for migrants and 
refugees. For example, in my diocese of El Paso, Texas, our community 
is currently being led in our response to provide respite for arriving 
asylum-seeking families by a local entity, Annunciation House.
    In this testimony, I will describe our recent experience in El Paso 
assisting asylum-seeking families who have been released by the 
Department of Homeland Security (DHS). I will also give context to what 
we are seeing as the effects of recent policies on our community and 
the primary factors leading to forced migration of children and 
families, and offer recommendations to: (1) Address root causes of 
migration; (2) help ensure that immigrant children and families are 
protected and treated with dignity; and (3) ensure such children and 
families are in compliance with their immigration proceedings, while 
maintaining the existing legal and legislative protections such as the 
Flores Settlement Agreement (Flores) and the Trafficking Victims 
Protection Reauthorization Act (TVPRA).
  1. catholic experience assisting immigrant families and children in 
                            federal custody
    Since 1994, USCCB/MRS has operated the ``Safe Passages'' program to 
provide residential care and family reunification services to immigrant 
children apprehended by DHS and placed in the custody and care of the 
Office of Refugee Resettlement (ORR), within the Department of Health 
and Human Services (HHS). In addition to providing programming and care 
for unaccompanied children, the Catholic Church has been a leading 
service provider for detained immigrant families. Immigrant detention, 
particularly the detention of families and children, is an explicit and 
long-standing concern of the Catholic Church. Each day, the Church 
witnesses the baleful effects of immigrant detention in ministry, 
through our pastoral and legal work with those in detention centers as 
well as in our care for those who have been paroled. Catholic entities 
serve separated families that struggle to maintain asemblance of normal 
family life and host support groups for the spouses of detained and 
deported immigrants. We have seen case after case of families who 
represent no threat or danger, but who are nonetheless treated as 
criminals and detained for reasons of enforcement. We further view 
immigrant detention from the perspective of Biblical tradition, which 
calls us to care for, act justly toward, and identify with persons on 
the margins of society, including newcomers and imprisoned persons.
    Besides advocating for reform of the existing detention system, 
USCCB/MRS has operated several alternatives to detention programs to 
assist immigrant families and other vulnerable populations. From 1999-
2002, INS (Immigration and Naturalization Service), the legacy DHS 
department, collaborated with Catholic Charities of New Orleans to work 
with 39 asylum seekers released from detention and 64 ``indefinite 
detainees'' who could not be removed from the United States. The court 
appearance rate for participants was 97 percent.\1\ From January 2014 
to March 2015, the USCCB/MRS (in partnership with Immigration and 
Customs Enforcement (ICE)) ran a community support alternative to 
detention program through its Catholic Charities partners in Baton 
Rouge, Louisiana and in Boston, Massachusetts that utilized case 
management and served individuals who would have not been ordinarily 
released from detention. The program yielded an over 95 percent 
appearance rate and included 4 family units.\2\ Additionally, Catholic 
Charities participated in the Family Case Management Program, a 5-city 
pilot family-based alternative to detention pilot program overseen by 
ICE from 2015-2017.\3\
---------------------------------------------------------------------------
    \1\ USCCB/MRS, et al.,The Real Alternatives to Detention 3 (2017), 
available at https://justiceforimmigrants.org/wp-content/uploads/2017/
07/The-Real-Alternatives-to-Detention-FINAL-06.27.17.pdf.
    \2\ Id.
    \3\ GEOCARE, Family Case Management Program 9 (2017).
---------------------------------------------------------------------------
   2. recent experience of humanitarian service entities at the u.s./
                             mexico border
    Family units have been arriving with increased frequency to the 
U.S./Mexico Border since 2014.\4\ Until recently, a large number of 
family units arriving and seeking asylum were released by ICE. 
Generally, the adults were processed by ICE and were given a credible 
fear interview, placed on an ankle monitor, and provided a ``Notice to 
Appear'' for immigration court, as well as a date for an appointment or 
``check-in'' with local ICE offices in their final destination city. 
Many of these released families have been served in communities along 
the border by humanitarian service providers, such as the coalition of 
service providers led by Annunciation House in the El Paso area. 
Annunciation House has worked to ensure that as many as these families 
as possible receive a hot meal, a change of clothes, short-term respite 
and assistance with arranging travel onward in the United States.
---------------------------------------------------------------------------
    \4\ During fiscal year 2018, the number of arriving family units 
increased to roughly 107,000 members arriving at the U.S./Mexico 
border, up from 76,000 in fiscal year 2017. As March 2019, the number 
of arriving family units was already estimated at over 189,000 for 
fiscal year 2019. U.S. Border Patrol Southwest Border Apprehensions by 
Sector Fiscal Year 2017, U.S. CUSTOMS AND BORDER PROTECTION (Feb. 11, 
2019), https://www.cbp.gov/newsroom/stats/usbp-sw-border-apprehensions-
fy2017; U.S. Border Patrol Southwest Border Apprehensions by Sector 
Fiscal Year 2018, U.S. CUSTOMS AND BORDER PROTECTION (Oct. 23, 2018), 
https://www.cbp.gov/newsroom/stats/usbp-sw-border-apprehensions; 
Southwest Border Migration, U.S. CUSTOMS AND BORDER PROTECTION (April 
29, 2019), https://www.cbp.gov/newsroom/stats/sw-border-migration.
---------------------------------------------------------------------------
    In recent months, in addition to ICE releasing families, Customs 
Border Protection (CBP) has also begun releasing family units directly 
to humanitarian service providers. In El Paso, we have particularly 
seen, starting around Christmas, an increase in the number of families 
arriving to our humanitarian shelters.\5\ The families released to 
humanitarian service providers from CBP typically do not seem to have 
received a credible fear interview, do not wear ankle monitors, and may 
not have an ICE ``check in'' appointment in their destination city. The 
recent addition of CBP releases and differences in the immigration 
processing for the families (depending on release from ICE or CBP) has 
created an additional coordination challenges for humanitarian service 
providers. While these release practices differ depending on the 
specific border community and level of engagement with local DHS 
officers, a large number of the families are being released to 
humanitarian reception centers and those centers are being operated on 
a charitable and voluntary basis. Specifically, the areas that are 
receiving the largest number of families releases are being led by 
Catholic service providers in: (1) El Paso, Texas--coordinated by 
Annunciation House with support from the El Paso diocese and other 
religious organizations; (2) McAllen, Texas--coordinated by Catholic 
Charities Rio Grande Valley with support from the Brownsville diocese; 
and (3) Tucson and Yuma, Arizona--coordinated by Catholic Community 
Services of Southern Arizona with support from the Tucson diocese and 
other religious organizations.
---------------------------------------------------------------------------
    \5\ See e.g., Joseph D. Lyons, El Paso's Migrant Shelters are Full, 
and Hundreds are Reportedly Being Released to the Streets, BUSTLE (Dec. 
30, 2018), https://www.bustle.com/p/el-pasos-migrant-shelters-are-full-
hundreds-are-reportedly-being-released-to-the-streets-15577034; Aaron 
Martinez, More Migrants Left by ICE in Downtown El Paso on Christmas; 
2,000 Expected by Week's End, El Paso Times (Dec. 25, 2018), https://
www.elpasotimes.com/story/news/immigration/2018/12/25/more-migrants-
expected-left-el-paso-bus-station-christmas/2411407002/ (``The 
announcement of the expected arrival of more than 1,200 migrants in the 
next few days comes after hundreds of migrants were dropped off at the 
Downtown El Paso Greyhound bus station over the weekend and on 
Monday.'').
---------------------------------------------------------------------------
    In El Paso, in collaboration with the work of Annunciation House, 
my diocese is operating two shelters: One on the grounds of the 
diocesan pastoral center and one located in downtown El Paso. 
Additionally, parishes in El Paso and in the neighboring diocese of Las 
Cruces, New Mexico have opened their doors to shelter immigrant 
families. These days it is not unusual for our network of service 
providers to assist up to 600-1,000 family members a day. The work that 
is being undertaken is immediate and vital to ensuring the well-being 
of the families and avoiding instances in which families are left 
without any assistance, alone at the local bus station, and at risk for 
exploitation.
    The families that we serve are fleeing great violence and are 
extremely thankful for the assistance and compassion that they receive 
at our community respite centers. They are eager to comply with our 
laws in the United States and do not want to be a burden or pitied; 
rather, they seek to be treated with dignity and given a chance to find 
protection, contribute to our country, and provide for their children. 
Most often, they are looking to reunite with family or a friend, and 
those sponsors pay for their transport onward and seek to leave our 
community within 24-48 hours. Sometimes, we encounter particularly 
vulnerable individuals, such as pregnant women or sick children who 
need additional care and stay longer in El Paso.
    Our community is exceptional, and it has come together to help 
welcome asylum-seeking families and has shown strength and compassion 
in this challenging moment. I am personally motivated and inspired by 
the work of the community and by the migrant families that we are able 
to serve and accompany. I believe the Government has a responsibility 
to care for people who are arriving with credible claims for asylum and 
a responsibility to assist anyone in desperate need within our borders. 
It is an honor for the Church and for Christians in general to serve 
these vulnerable people. We do not begrudge the opportunity, but our 
resources and our volunteers are being significantly strained by the 
scope and duration of the high arrival numbers. The Church and other 
humanitarian service providers and the local communities along the 
border are key partners in this effort and need to be recognized by our 
Federal Government as such.
    The impacts of the administration's policies are having even more 
concerning effects on the vulnerable populations of children and 
families that are coming to our borders. There are serious concerns 
about them is treatment families receive along the dangerous migration 
journey and, sometimes, at the hands of U.S. Border Patrol. I worry 
that with the continued dehumanizing rhetoric regarding immigrants and 
refugees, a culture of disrespect and corresponding negative policies 
for those who come seeking refuge has begun to take form. To this end, 
my brother Bishops and I remain deeply troubled by the administration's 
recent efforts to curtail the ability of asylum seekers arriving at the 
U.S./Mexico border to seek protection. In November 2018, the 
administration issued a Presidential Proclamation and corresponding 
interim final rule that attempted to bar individuals from being able to 
claim asylum if they enter the United States through the Southern 
Border without going through an official Port of Entry.\6\ 
Subsequently, in January 2019, the administration issued the ``Migrant 
Protection Protocols,'' or the ``Remain in Mexico'' policy, which 
outlined instances where the U.S. Government would return certain 
asylum seekers to Mexico to wait during the duration of their pending 
cases in the United States immigration court system.\7\ As my brother 
Bishops along the border between Texas and Northern Mexico have noted, 
these policies harm our immigrant brothers and sisters in need.
---------------------------------------------------------------------------
    \6\ President Donald J. Trump, Presidential Proclamation Addressing 
Mass Migration Through the Southern Border of the United States (Nov. 
9, 2018), available at https://www.whitehouse.gov/Presidential-actions/
Presidential-proclamation-addressing-mass-migration-southern-border-
united-states/; Aliens Subject to a Bar on Entry Under Certain 
Presidential Proclamations; Procedures for Protection Claims, 83 Fed. 
Reg. 55,934 (Nov. 9, 2018).
    \7\ DHS Secretary Kirstjen Nielsen, Policy Guidance for 
Implementation of the Migrant Protection Protocols (Jan. 25, 2019), 
available at https://www.dhs.gov/sites/default/files/publications/
19_0129_OPA_migrant-protection-protocols-policy-guidance.pdf.
---------------------------------------------------------------------------
    I have toured the Casa del Migrante across the border in Juarez, 
Mexico, run by Padre Javier Caldillo, and seen first-hand how 
overwhelmed it is in recent months and especially with the 
implementation of the Remain in Mexico policy in the El Paso sector. 
The impact of this policy on vulnerable people forced to wait in 
uncertain and dangerous conditions in Mexico poses grave safety, 
humanitarian, and due process concerns. I urge the administration to 
rethink this policy, particularly as it relates to the institutional 
obstacles it places on humanitarian entities who operate along the 
border trying to safely assist and provide respite for immigrants and 
refugees and the dangerous situations it places asylum-seekers in as 
they attempt to access legal protection in our country. And, I 
reiterate the Texas and Northern Mexico bishops' appeal that, ``in the 
name of our Lord Jesus Christ, that [governments] not adopt policies 
that have the effect of increasing the suffering of the 
vulnerable.''\8\
---------------------------------------------------------------------------
    \8\ Statement of the Bishops of the Border Between Texas and 
Northern Mexico (March 4, 2019), available at https://www.cdob.org/3-4-
19-statement-from-tex-mex-border-bishops/.
---------------------------------------------------------------------------
 3. understanding the root causes that cause families and children to 
                                  flee
    Recent efforts have attempted \9\ to frame existing laws, such as 
Flores and the TVPRA, as primary ``pull'' factors for arriving asylum-
seeking children and families coming to the United States. The reality, 
however, is that violence and internal displacement continue within the 
Northern Triangle countries (El Salvador, Guatemala, and Honduras) 
unabated and that much of the violence is targeted at the vulnerable 
families and children who are subsequently forced to flee for safety. 
Through our work on the ground with Catholic partners, we know that 
entire families, not just children, are currently facing targeted 
violence and displacement. It is these factors--gang and domestic 
violence, impunity, and lack of opportunity related to displacement and 
violence--that cause families to flee north for protection, not 
awareness of the TVPRA and Flores and its legal litigation progeny.
---------------------------------------------------------------------------
    \9\ Homeland Security Advisory Council (HSAC), Final Emergency 
Interim Report--CBP Families and Children Care 2 (April 16, 2019), 
available at https://www.dhs.gov/sites/default/files/publications/
19_0416_hsac-emergency-interim-report.pdf.
---------------------------------------------------------------------------
    To this point, a close look at the recent migration influx into 
Mexico shows a similar pattern to what we are facing in the United 
States. Mexico is no longer just as ending country, but a transit and 
destination country for migration--particularly that from the Northern 
Triangle. Similar to the United States, its asylum system has seen 
large increases in requests for protection: From just over 1,000 in 
2013 \10\ to nearly 30,000 in 2018.\11\ In the first 2 months of 2019, 
there was a further 185 percent increase in the number of people 
seeking asylum in Mexico compared to the same period in 2018.\12\ There 
have been similar increases in asylum requests in Costa Rica as well. 
These spiking numbers demonstrate that increased arrivals to the United 
States are not a result of a hyper-awareness of U.S. immigration laws 
by arriving families. Rather, there is a larger regional forced 
migration situation related to violence, political instability, lack of 
opportunity, climate change and criminal impunity. Due to conditions in 
the Northern Triangle, families face forced migration; and, many of 
these families are truly fleeing persecution. Looking at solutions that 
are focused solely on changes to domestic laws will erode existing 
protections for such asylum-seeking children and families, while 
ignoring the larger holistic migration issue that must be addressed on 
a regional level.
---------------------------------------------------------------------------
    \10\ Comision Mexicanade Ayuda A Refugiados, Boletin Estadistico de 
Solicitantes de Refugio en Mexico (2013), available at https://
www.gob.mx/cms/uploads/attachment/file/413013/COMAR_2013.pdf.
    \11\ Rachel Schmidtke, 2018 Migration To and Through Mexico Fact 
Sheet, Wilson Center (March 15, 2019), https://www.wilsoncenter.org/
article/2018-migration-to-and-through-mexico-fact-sheet.
    \12\ Id.
---------------------------------------------------------------------------
    The Church in Guatemala, Honduras, and El Salvador is experiencing, 
publicly reflecting on, and responding to the escalation of violence in 
urban communities, in rural communities, and to family units. In his 
pastoral letter, ``I See Violence and Strife in the City,'' Most 
Reverend Jose Luis Escobar Alas, Archbishop of San Salvador, stated: 
``[T]he faithful know that they are being monitored [by gangs] in their 
comings and goings in the communities. The same applies to pastoral 
agents who are constantly watched . . . The exodus of families is 
heartbreaking . . . It is truly unfortunate and painful that the Church 
cannot work because of this atmosphere of insecurity and anxiety that 
shakes our beloved country.''\13\ The Archbishop describes one parish 
alone that in one year was ``exposed to murder, persecution, exodus, 
and extortion,'' including the murder of 6 active parishioners by 
stabbing, dismemberment, or firearms.\14\
---------------------------------------------------------------------------
    \13\ Most Reverend Jose Luis Escobar Alas, I See Violence and 
Strife in the City: A Pastoral Letter on the Occasion of the Feast of 
the Beloved Blessed Oscar Romero, 18 (March 24, 2016).
    \14\ Id. at 15.
---------------------------------------------------------------------------
    Catholic social teaching recognizes the right to migrate but also 
recognizes the right not to migrate and that people can and do have the 
right to remain in their homeland and be able to provide a decent life 
for themselves and their families. Many programs that have been 
implemented in Central America by the Church, our Federal Government 
and other partners are working to help ensure people can actually have 
a decent life and have access to a steady job and a safe community. We 
as a global Church are always reminding people that they have the right 
to remain in their home country. Unfortunately, due to increased 
violence and lack of opportunity that is not always something that 
families who are facing persecution feel is an option; sometimes 
migration is seen as the only option to protect one's life.
   4. recommendations to promote humane care and ensure immigration 
                               compliance
    In light of the increased number of asylum-seeking families we are 
seeing in El Paso and other border communities, and in consideration of 
the regional forced migration situation the Western Hemisphere is 
facing due to violence, poverty, and other root causes, we recommend 
the following ways in which our country can provide humane care to 
immigrant children and families, promote secure borders and address the 
migration flow, and ensure compliance with immigration laws:
  <bullet> Aggressively Address Smuggling, Trafficking, and Criminal 
        Networks Through Economic and Multilateral Efforts.--Many of 
        the families who are coming to the U.S./Mexico border have been 
        exploited. They have been left unprotected and vulnerable by 
        their home country and then have experienced dangerous 
        migration journeys that have left them in debt and vulnerable 
        to violence and death.
    <bullet> Short-Term.--Look to robustly implement existing recent 
            security cooperation arrangements and information-sharing 
            agreements regarding drug, human, and gun traffickers and 
            smugglers with Northern Triangle countries. Consider 
            implementing similar arrangements with Mexico.
    <bullet> Long-Term.--Develop more comprehensive regional 
            intelligence and data sharing mechanisms on transnational 
            criminal organizations and drug, human, and gun smuggling 
            networks to weaken and disband networks. Additionally, look 
            to utilize monetize the estimated $200 million-$2.3 billion 
            2017 smuggling network revenues thought to be collected 
            from smuggling migrants from Guatemala, Honduras, and El 
            Salvador to combat existing criminal networks.\15\
---------------------------------------------------------------------------
    \15\ Victoria A. Greenfield, et al., Rand Corp., Human Smuggling 
from Central America to the United States (2019), available at https://
www.rand.org/pubs/research_briefs/
RB10057.html?utm_medium=rand_social&utm_source=twitter&utm_campaign=oea.

---------------------------------------------------------------------------
  <bullet> Address Root Causes of Migration with Trauma-Informed and 
        Regional Responses--Congress should provide more funding for 
        interdisciplinary programming to address root causes of 
        migration in the Northern Triangle.--Programming must address 
        the actual social service needs of vulnerable children and 
        families who are currently in forced migration situations. 
        Special consideration should be given to funding initiatives 
        like safe repatriation services, home country needs assessments 
        and referrals, and aid that strengthens educational and work 
        opportunities. Both Congress and the administration should also 
        look to find ways to support regional asylum systems and 
        alternative avenues for seeking protection in the United 
        States.
    <bullet> Short-Term.--The administration should fully reinstate the 
            Central American Minors Program and not look to cut off aid 
            to the Northern Triangle. As noted above, the United States 
            should invest in expanded programming to address the needs 
            of vulnerable families and children in the region. The 
            United States should also look to expand investments in 
            anti-gang and anti-corruption programming, as well as 
            initiatives to promote human rights in the sending 
            countries.
    <bullet> Long-Term.--The United States should help to build 
            capacity of the Mexican and other regional asylum systems, 
            encourage consistency in Mexican immigration policy, and 
            address the on-going humanitarian crisis in Venezuela.
  <bullet> Improve Existing Border Processing Policies to Reflect 
        Humanitarian Needs and Retain Flexibility.--Migration is a 
        cyclical and dynamic phenomenon. Current DHS institutional 
        capacity to address influx periods of migration, however, is 
        limited. CBP and ICE need to take approaches from the emergency 
        management field and implement short- and long-term policies 
        that enable greater community stakeholder cooperation, as well 
        as communication and agency flexibility during influx migration 
        periods.
    <bullet> Short-Term.--DHS should acknowledge local community 
            partners on the ground and better coordinate with them to 
            address the current influx. DHS entities, both ICE and CBP, 
            need to better coordinate drop-offs of families and clearly 
            communicate the number of arriving families to humanitarian 
            service providers earlier in the day. Drop-offs need to be 
            made, when possible, during business hours. Local city and 
            county governments need to be kept informed of expected 
            number of arrivals and briefed regularly. Furthermore, 
            Congress needs to authorize DHS to have grant-making 
            authority to fund humanitarian service providers in influx 
            periods to increase capacity.
    <bullet> Long-Term.--Congress should fund DHS to build and staff 
            processing facilities along the border and increase Port of 
            Entry infrastructure to improve the orderly flow of goods 
            and the orderly processing of people. Processing facilities 
            should be designed to accommodate the needs of arriving 
            families, children, and other vulnerable populations. 
            Medical professionals and child welfare experts should be 
            staffed at processing centers that receive large numbers of 
            families and children.
  <bullet> Invest Robustly in a Variety of Alternatives to Detention 
        Programming for Families.--Congress should more robustly fund 
        alternatives to detention (ATDs) in the DHS budget. Congress 
        should also ensure that DHS is working to expand and pilot 
        diverse alternatives to detention programming--in the form of 
        the Intensive Supervision Appearance Program (ISAP), as well as 
        alternatives to detention programming that utilize case 
        management and, in some cases, NGO civil society participation. 
        Congress should instruct DHS to publicly report on the outcomes 
        of these programs and ensure that a continual pilot period is 
        undertaken to secure transparent and viable data on the 
        effectiveness of such programs. There should be special 
        attention given to addressing the cost and due process concerns 
        for those on detained vs. non-detained docket.
    <bullet> Short-Term.--Congress should ensure DHS immediately begins 
            to implement a pilot of the Family Case Management Program 
            for the top 5 destination cities for families. Under the 
            fiscal year 2019 DHS Appropriations Agreement from February 
            2019, ICE is instructed to report within 90 days to 
            Congress about plans to implement some form of family case 
            management alternative to detention programming. DHS can 
            look to start implementing this program immediately by 
            engaging existing Government contractors, as well as NGO's 
            who have worked on similar programs in the past.
    <bullet> Long-Term.--Congress should require longitudinal studies 
            on the efficacy of alternatives to detention for families, 
            to be overseen by independent monitors. Studies should 
            focus on examining the range of ATDs employed, the cost per 
            day, the overall cost of the program, the ability to 
            effectuate outcomes such as removal or attainment of legal 
            status and demonstrated compliance as a means to ensure 
            future participation.
  <bullet> Maintain Family Unity and Family Reunification Principles.--
        As Pope Francis has stated, the family ``is the foundation of 
        co-existence and a remedy against social fragmentation.'' 
        Upholding and protecting the family unit, regardless of its 
        national origins and its size, is vital to our faith and to our 
        country.
    <bullet> Short-Term.--DHS must ensure that it utilizes family-
            friendly processing procedures and does not separate family 
            units unless in situations of child endangerment. These 
            policies need to be robustly implemented and instances of 
            family separation must be documented.
    <bullet> Long-Term.--Congress must look to ensure that family-based 
            immigration principles and laws are maintained.
  <bullet> Ensure Efficient Due Process and Humane Policies for Asylum-
        Seeking Families.
    <bullet> Short-Term.--Congress should urge the administration to 
            reverse its Remain in Mexico and November 2019 asylum 
            policies, which if permitted by the courts to proceed, 
            would needlessly increases the suffering of the most 
            vulnerable and violate international protocols.
    <bullet> Long-Term.--Congress should further invest in augmenting 
            the capacity of the immigration courts by hiring more 
            judges and providing additional funding for new courtroom 
            facilities. It should also consider making the immigration 
            courts independent Article I courts. Additionally, Congress 
            should ensure robust funding for legal information programs 
            such as the Legal Orientation Program, Legal Orientation 
            Programs for Custodians of Unaccompanied Children, and the 
            Information Help Desk, which do not fund immigration 
            counsel but help provide information to detained and 
            released immigrants to ensure they know more about 
            compliance requirements.
                             5. conclusion
    Our Nation has had a long and proud history of providing humane 
treatment to and due process for asylum seekers. I urge us to reject 
policies and proposals that would abandon this tradition, and I ask our 
Government to remember that those fleeing to our border are not the 
``other'' but fellow children of God. I appreciate the subcommittee's 
consideration of the recommendations set forth above, which seek to 
address root causes of migration, promote asylum seekers' humane care, 
and ensure immigration compliance. As always, the Catholic community of 
El Paso and the larger Catholic Church stands ready to work with 
Congress and the administration to develop and implement compassionate 
and just policies and procedures relating to the arriving families and 
children. And, we will continue to pray for these vulnerable migrants 
and those working with them and on their behalf.

    Miss Rice. Thank you, Bishop.
    Sheriff.

 STATEMENT OF SHERIFF MARK D. NAPIER, SHERIFF OF PIMA COUNTY, 
             SOUTHWESTERN BORDER SHERIFFS COALITION

    Sheriff Napier. Good morning, Subcommittee Chairman Rice, 
Ranking Member Higgins. It is an honor to have the opportunity 
to testify before the subcommittee this morning.
    Pima County, Arizona is the largest of the 31 border 
counties, with 125-mile linear exposure to the international 
border, in a population of just over 1 million.
    In many places, the international border is 
nondistinguishable, meaning there is literally nothing there to 
secure or otherwise define our international border.
    To suggest that there does not exist a crisis on our 
Southern Border is intellectually dishonest. To be steadfast in 
that assertion despite clear evidence to the contrary is to be 
intellectually dishonest with malice.
    To promulgate the idea that this is a crisis created or 
manufactured by the current administration is simply false. No 
reasonable-thinking person could assume the current 
administration has sought to entice families with children and 
unaccompanied minors to come in caravans to our border, or in 
some manner sought an escalation of the trafficking of hard 
narcotics into our country.
    I have been in Pima County for 32 years. We have had a 
border crisis for all 32 years that I have been in Pima County. 
The nuances and the elements of that crisis have evolved over 
time. But nonetheless, we have had a crisis all this while.
    The unprecedented increase in family unit migration and the 
public health emergency associated with drug addiction are 
real, not manufactured or the product of some nefarious 
political scheme.
    Prior administrations, both Republican and Democrat, have 
recognized and affirmed the existence of a crisis on the border 
and the need for border security.
    There are three unimpeachable reasons that without respect 
to political ideology, we should embrace as reasons to address 
this crisis and secure our border with Mexico. They are public 
safety, National security, and human rights.
    With respect to public safety, the lack of a secure border 
presents a public safety crisis, not only for border counties 
but also for our Nation. The porous border is being exploited 
by drug and human traffickers. We are interdicting 
unprecedented amounts of methamphetamine, heroin, and fentanyl.
    According to Arizona HIDTA, in 2018 alone, 113,286 pounds 
of methamphetamine, 7,949 pounds of heroin, 204,932 fentanyl 
pills were seized just along the Southwest Border of the United 
States. These are absolutely shocking numbers.
    Migrants are being victimized financially, criminally, and 
sexually as they make the journey from Mexico and Central 
America to our border. The lack of a border security is an 
undeniable public safety crisis.
    With respect to human rights, tacitly encouraging people in 
Mexico and Central America to make the dangerous journey to our 
border is not compassionate public policy. Southwest Border 
sheriff deputies recover more than 100 bodies a year in the 
remote areas of our counties. Migrants are dying in our 
deserts.
    The composition of migrants has changed significantly over 
the past several years. Previously, the majority were single 
males from Mexico traveling as individuals or in small groups. 
Now, the majority are other than Mexican, and comprised of 
family units, women, children, and unaccompanied minors.
    As Federal resources have been strained past the breaking 
point, asylum seekers are being released into border 
communities. An estimated 7,000 people have been released into 
Pima County just over the past several months, pending asylum 
hearings. Just this past week, 213 people were released, of 
which 112, or 53 percent, were children.
    Once released into our community, we are obligated to 
provide adequate care for them. This has nearly collapsed our 
local social services network. Our NGO's and their volunteers 
are stressed to the breaking point and beyond. Social service 
resources that should address local issues of hunger and 
homelessness are now unable to do so.
    The lack of a secure border is an undeniable humanitarian 
crisis. The humanitarian crisis is compelling, and should bring 
leaders of both parties together to find solutions.
    The border crisis is real. I know as a border sheriff; I 
live with it every day. However, to caption it as a border 
crisis, while true, is misleading. There were 70,000 opioid-
related overdose deaths last year, more than from motor vehicle 
traffic accidents. Law enforcement officers now carry medicine, 
Narcan, on their persons like they might a flashlight or a 
radio, in the hope of saving just a few lives. This was 
unimaginable but a few years ago.
    Without a doubt, these drugs are coming through our 
Southern Border. Gang members and hardened criminals are using 
this crisis to enter our country undetected to prey upon our 
citizens and make our communities less safe. Migrants are being 
victimized on both sides of the border, and our inability to 
care for them once here, despite the best efforts of my Federal 
partners, only serve to compound their misery.
    Human traffickers and drug traffickers are profiteering 
from this crisis, and only seek to escalate it. We need action 
from Washington, DC, not partisan politics. We need significant 
and meaningful additional resources to bolster both our public 
safety and our humanitarian efforts to address this crisis.
    Finally, we need comprehensive, thoughtful, and detailed 
legislative action to address a permanent resolution to this 
crisis. I have lived and worked in a border county for more 
than 30 years. All that time, leadership in Washington, DC, 
have acknowledged the challenge of border security and sought 
to some varying degrees to address it. Yet, here we are. Let us 
affirm today that no sheriff will sit before Congress 30 years 
from now and say: We should do something.
    Honorable Members of this committee, we must do something 
now. The degradation of public safety, the humanitarian crisis, 
and the concern for National security mandate that we do so.
    Thank you for the opportunity to testify before you, and I 
welcome questions from the subcommittee. Thank you.
    [The prepared statement of Sheriff Napier follows:]
                  Prepared Statement of Mark D. Napier
                             April 30, 2019
                              introduction
    Subcommittee Chairwoman Rice and Ranking Member Higgins, it is an 
honor to have the opportunity to testify before the Border Security, 
Facilitation, and Operations Subcommittee. I serve as the elected 
Sheriff of Pima County, Arizona. I am a member of the Southwest Border 
Sheriffs' Coalition, vice president of the Arizona Sheriffs' 
Association and serve as the chair of the Border Security Committee of 
the Major County Sheriffs of America. I possess a Master's Degree in 
Criminal Justice from Boston University and have 3 decades of law 
enforcement experience.
    Pima County, Arizona is the largest of the 31 border counties 
abutting the U.S./Mexico international border. Pima County has a 125-
mile linear exposure to the international border and a population of 
just over 1 million. In many places in our county, the international 
border is non-distinguishable; meaning there is literally nothing there 
to secure or otherwise define the border. This makes our county 
vulnerable to drug and human trafficking. With this comes humanitarian 
and public safety challenges that strain our resources and negatively 
affects our community.
    Border counties take the issue of the crisis on our border 
seriously. We do so because we live it and see it first-hand. This 
crisis affects our home, our safety, and our economy.
                    denial of a crisis on our border
    To suggest that there does not exist a crisis on our Southern 
Border is intellectually dishonest. To be steadfast in that assertion 
despite clear evidence to the contrary is to be intellectually 
dishonest with malice. To promulgate the idea that this is a crisis 
created or manufactured by the current administration is simply false. 
No reasonable thinking person could assume that in some way the current 
administration has enticed families with children and unaccompanied 
minors in Central America to come in caravans to our border or in some 
manner sought an escalation of the trafficking of hard narcotics into 
our country. The unprecedented increase in family unit migration and 
the public health emergency associated with drug addiction are real, 
not manufactured or the product of some nefarious political scheme. 
This is not stated with a partisan heart or in blind defense of a 
political party, current administration, or ideology. Rather, it is 
stated as a person with decades of law enforcement experience and who 
has resided in the border region for more than 30 years. There has been 
a crisis on our border all this time. The nature and nuances of that 
crisis have changed/evolved over the years, but it has always existed. 
Prior administrations from both political parties have recognized and 
affirmed the existence of a crisis on the border. To varying degrees 
leaders of both political parties have attempted to address it over the 
proceeding decades.
    In Washington, DC, the border crisis has become fodder for 
seemingly endless debate and political gamesmanship. It appears to be 
more important who wins, than actually solving the problem. The 
ascribing of blame for the current conditions on the border is more in 
focus than a bipartisan effort to find solutions. For those of us who 
live along the border who wins and the application of blame are of 
complete disinterest. This crisis impacts our safety, our community, 
and our economy. We do not read about the degradation of public safety 
with passive interest from afar. We do not learn of the humanitarian 
costs with casual concern. We experience both in concrete and objective 
terms every day. We look to our elected officials in Washington to 
address this crisis in a meaningful manner. It is time to do so. First, 
we must secure our border.
             we must secure our southern border with mexico
    There has been and will likely continue to be much debate about 
border security and how to achieve it. Sheriffs stand united and are 
crystal clear in stating; our Southern Border with Mexico must be 
secured. As the chief law enforcement officers in our respective 
counties, we have witnessed the societal and public safety costs 
resulting from the lack of border security. We have heard political 
leaders of all stripes talk about securing the border with little 
consequence. Today, many portions of our border with Mexico are still 
not secure in any meaningful way. Our ports of entry lack the 
sufficient staffing and technology necessary to be effective deterrents 
to transnational crime. Fundamentally problematic is allowing such a 
significant issue to be mired in endless political debate and partisan 
divide. It is time, past time, to move forward with meaningful border 
security.
    Some argue that efforts to secure the border are somehow immoral. 
What is immoral is a system that incentivizes migrant families in 
Central America to undertake the long and dangerous journey to our 
Southern Border in the belief it is possible to walk easily across. 
These people are victimized criminally, financially, and sexually 
during this journey. Many also suffer due to environmental exposure. 
Once in the United States, there is further victimization as they are 
thrust into a system that of no fault of our Federal Government is 
unable to care for them properly. Securing the border should rationally 
be viewed as moral. It serves as a disincentive to engage in what is a 
very dangerous behavior.
                     the reason for border security
    The desire to secure the border is not driven by hate or disdain 
for people in Mexico and Central America. The people of those countries 
are not our enemies. In Arizona, we see them as our friends, our 
neighbors, and our trading partners.
    There are three unimpeachable reasons that without respect to 
political ideology we should all embrace as valid reasons to secure 
immediately our border with Mexico. They are public safety, National 
security, and human rights
    Public Safety.--The lack of a secure border presents a public 
safety crisis, not only for border counties but also for our Nation. 
The porous border is exploited by transnational criminal organizations 
to engage in drug and human trafficking.
    We have a public health crisis with respect to illicit drug use 
that is leading to overdose deaths and lifetime addiction. The public 
safety threat of drug trafficking is significant and the societal costs 
are staggering. Overdose deaths exceeded those of traffic accidents 
last year. No one would have believed this could occur even a few years 
ago. An estimated 70,000 people died because of opioid overdose in 
2018.
    Deputies in my county are interdicting unprecedented quantities of 
hard drugs. Large seizures are almost a daily occurrence. For every 
interdiction we make we know that we miss far more. Traffickers 
continue to use these methods because they are more often successful 
than not. They have become increasingly sophisticated with respect to 
how to conceal drugs in vehicles. This has made interdiction efforts 
more difficult as we now have to ferret out complicated concealed 
compartments in vehicles. Drugs we miss in Pima County (we believe 
despite our best efforts is substantial) are distributed throughout the 
country to the detriment of public safety and public health.
    Methamphetamine.--Seizures of 20 to 50 pounds of methamphetamine 
have become common. We know that this drug is not being manufactured 
locally. The manufacturing labs are in Mexico. Meth is coming up from 
the border in previously unimaginable amounts. Quantities of this size 
are not destined for consumption locally. This methamphetamine is 
destined for locations across the country. The collateral criminality 
associated with methamphetamine intoxication is very pronounced.
    A few examples of seizures just from Pima County, Arizona:
  <bullet> November 2018 (140.75 pounds of methamphetamine)
  <bullet> December 13, 2018 (25.15 pounds of methamphetamine)
  <bullet> December 18, 2018 (20.35 pounds of methamphetamine)
  <bullet> December 21, 2018 (16.05 pounds of methamphetamine)
  <bullet> January 7, 2019 (10.22 pounds of methamphetamine)
    Opioids.--In our county, we are interdicting thousands of fentanyl 
pills. These too are not being manufactured locally and are being 
trafficked from the border. The potency of these pills varies widely 
and they often have fictitious labeling. As a result, communities 
across the country are facing a staggering number of overdoses and 
deaths. The costs to families, emergency services, and to our public 
health system are staggering.
    On November 7, 2018, Pima County deputies interdicted 13,000 
fentanyl pills on a single traffic stop. This was clearly destine for 
distribution across the country. It is reasonable to assume that this 
would have resulted in a significant number of overdose deaths 
affecting communities far removed from the border.
    So significant is the opioid problem that many law enforcement 
agencies are now deploying Narcan in the hope of saving some from 
overdose deaths. We should pause to consider this for a moment. This 
has become such a crisis that law enforcement officers are now carrying 
medicine on their person as they might a radio or a flashlight.
    Drug trafficking across the Southern Border facilitated by a lack 
of border security is a public safety and a public health crisis the 
scale of which we have never experienced in my more than 30 years here.
    Human traffickers exploit migrants criminally, sexually, and 
financially. Most people seeking to enter this country without proper 
documentation are otherwise good people in pursuit of a better life. 
However, smugglers require large sums of money to transport or shepherd 
them across the border financially victimize them. They are frequently 
the victim of criminality in the remote desert areas of the SW where 
they have little protection and are reticent to seek law enforcement 
protection. We know that about 30 percent of migrant women suffer 
sexual abuse. Most likely, this is significantly underreported. Some 
are sexually trafficked once inside the United States for a protracted 
period.
    Criminals and gang members posing as migrants can and do use the 
lack of border security to enter our country to further their criminal 
behavior. We have ample evidence of this occurring that is beyond 
refute. Criminals exploit the influx of asylum-seeking migrants to mask 
their illegal entry into the United States. In recent weeks, gang 
members and other persons with serious criminal histories have been 
detained after entering the country. Some of these people had 
previously been deported multiple times. It is reasonable to assume 
that had these individuals avoided capture they would have posed a 
public safety threat to our communities. Moreover, it is also 
reasonable to assume that many similar persons have evaded capture due 
to the system being overwhelmed.
    This week heavily-armed persons were observed escorting a migrant 
woman and child to the border. These individuals were wearing tactical 
gear and possessing military-style weaponry. The public safety threat 
of this is significant. It is demonstrative of an escalation in the 
level of potential violence associated with human trafficking.
    We are beginning to see a rise in quasi-militia groups operating 
along the border. These armed individuals are detaining persons 
suspected of being in the country illegally without training or legal 
authority to do so. This provides a significant potential for conflict 
between local or Federal law enforcement and these groups. Further, it 
imperils the safety and human rights of migrants. It is also 
disquieting to people along the border as they have unfamiliar heavily-
armed people traversing their community. These groups are born in part 
out of frustration over the apparent inability of the Federal 
Government to secure our border.
    The lack of a secure border is an undeniable public safety crisis.
    National Security.--We simply do not know who is coming across our 
border. We do know there are bad actors from hostile nations that wish 
us harm. This is not a political statement, but rather a factual one. 
The lack of border security can be leveraged by those wishing us harm 
to come into our country undetected. Engaging in debate about whether 1 
suspected terrorist or 50 enter our country through our insecure 
Southern Border is both unproductive and meritless. The salient point 
is that we do not know who is coming into our country, which is 
rationally a National security concern. International terrorism is a 
threat that must be taken seriously.
    The National security threat is compounded by how it has evolved. 
We have diminished concern about complex and well-coordinated attacks 
such as we experienced on 9/11. The current concern is more toward low-
tech lone wolf-type attacks, such as physical attacks with hand weapons 
in crowded areas, suicide bombings, and the weaponization of common 
vehicles. These single bad actors could easily enter our country 
undetected through Southern Border. No-Fly lists or other law 
enforcement methods of detecting/intercepting these persons are 
ineffective if the person enters the country in this manner. We have 
ample evidence of the lethality that a single motivated person can 
possess through a very low-tech random attack. One of these people 
entering our country undetected is too many.
    The lack of border security is an undeniable National security 
concern.
    Human Rights.--Encouraging migrants to make the dangerous journey 
to our border and then attempt to cross into remote areas of our 
country is not compassionate public policy. Southwest Border deputies 
recover hundreds of bodies a year in remote areas of our counties. 
Migrants die due to the harsh environment or at the hands of alien 
smugglers. Often all we recover are bones that are scattered about by 
animals. It is frequently impossible to know who the person was or what 
led to death. Many walk hundreds of miles from Central America, some 
with children in tow, to get to the border in hope of a better life. 
They are led to believe they can simply walk in to the United States. 
This leads to human rights issues/abuses on both sides of the border 
and too often deaths.
    The composition of migrants has changed significantly over the past 
several years. Previously, the majority were single males from Mexico 
traveling as individuals or in small groups. Now, the majority are 
other than Mexican and are comprised of family units, women, children, 
and unaccompanied minors. They now travel in larger groups and 
caravans. This does not serve to diminish the victimization of them on 
either side of the border. The ability of Federal resources to address 
the volume and changing nature of the migrants is a significant 
concern. The system is strained beyond capacity. Once in the United 
States there is further hardship faced by migrants because, at no fault 
of the system, it is not capable or designed to provide sufficient care 
or housing for them.
    As Federal resources have been strained past the breaking point 
asylum seekers have been released into border communities. An estimated 
7,000 people have been released into Pima County over the past several 
months. Once released into the community we are obligated to provide 
adequate care for them until they transition to other locations across 
the United States pending asylum hearings. This has nearly collapsed 
our local social services network. My detention facility is currently 
providing sack lunches for up to 150 persons per day to help with 
feeding. Social service resources that should address local issues of 
hunger and homelessness are now completely unable to do so, as we now 
must provide care for people that really are the responsibility of the 
Federal Government.
    The Rand Corporation recently published a study indicating that 
human smugglers may make as much as $2.3 billion per year smuggling 
people into the United States. While the drug cartels may not be 
directly involved in human trafficking, they profit from human 
smuggling by requiring a tax for traveling through cartel-controlled 
avenues into the United States. Many migrants pay as much as $7,000 to 
smugglers to be brought into our country. Too often they are abandoned 
a short distance into the United States without sufficient water or 
resources. This frequently leads to death due to environmental 
exposure. Women frequently pay by being sexually victimized. Being 
smuggled into this country is not a harmless or benign activity. It 
leads to financial, criminal, and sexual victimization of migrants and 
tragically death.
    People in many parts of the world face desperate conditions 
Americans can hardly imagine. They seek a better life for themselves 
and their families. A secure border, along with more sensible legal 
immigration policies, would dissuade the dangerous and often deadly 
behavior of engaging smugglers and traversing hundreds of miles of 
remote areas.
    The lack of border security is an undeniable human rights issue.
    Sheriffs have been, and will remain, consistent in their stance on 
border security. Let us reiterate and be absolutely clear, we need to 
secure our Southern Border with Mexico immediately for public safety, 
National security, and human rights reasons.
                        how to secure the border
    There has been much focus on ``The Wall.'' The term ``The Wall'' 
has become synonymous with border security. This term has become a 
lightning rod of division that has detracted, more than added, to 
thoughtful approaches to securing our border. ``The Wall'' alone is a 
sound bite, not a cogent public policy position.
    The U.S./Mexico border is nearly 2,000 linear miles. It presents 
topography, environmental and land use challenges to what might be 
considered a traditional wall. There are mountains, waterways, Native 
American Reservations, and environmentally sensitive areas where 
traditional physical barriers will be difficult, if not impossible, to 
construct. Some areas are very remote and lack the supporting 
infrastructure to facilitate a massive construction project of this 
scale. Even if properly funded and enjoying wide-spread public support, 
it would take many years to construct a wall across the entire border 
with Mexico. We cannot wait for years and be hostage to the future 
whims of subsequent political leadership to secure our border. The time 
is now.
    There are many places where physical barriers make sense and are in 
fact the best solution to securing the border. They should be 
constructed immediately. The strategic deployment of physical barriers 
along our Southern Border is not racist, not partisan, and not the 
result of imagined threat; it is good public policy. In fact, at one 
time or another doing so has been embraced by both political parties. 
In other locations, we need to turn to technology, which thanks to 
modern advances is robust and effective. In other areas, we need more 
human resources closer to the border to ensure security. Likely, in all 
locations we will need some blend of physical barriers, technology, and 
human resources to be successful.
    The ultimate goal of these efforts should be the complete and total 
operational security of our Southern Border. Endless debate about what 
constitutes a ``wall'' and how it is paid for it do little to advance 
this element of much-needed border security.
    As we discuss border security, we need to remember the importance 
of addressing our Ports of Entry (POE). POEs are not being discussed 
enough and remain a major vulnerability for drug trafficking. We have 
to ensure security while still supporting the effective flow of 
legitimate transnational commerce. Commerce with Mexico through the 
POEs is vital to Border States and pumps billions into our economy. 
Allowing Mexican citizens the ability to cross into the United States 
to engage in legitimate commerce is also vital to the economy of border 
regions. The POEs need better staffing and technology to support the 
efficient flow of legitimate transnational commerce while having the 
ability to detect and interdict illegitimate/criminal transnational 
activity.
    POE's are a current vulnerability for the trafficking of drugs 
concealed in vehicles or upon persons. Some argue that the drug problem 
could be solved by simply shoring up the POEs and that other border 
securing measures would therefore be unnecessary. While it is true that 
the majority of drugs trafficked into the United States are currently 
coming through the POEs, rather than between them, this assertion is 
logically nonsensical. To believe otherwise one would have to assume 
that if it became impossible to traffic drugs through the POEs that the 
drug cartels would fold up operations and find legitimate employment. 
This, of course, is absurd. The cartels are the ultimate 
entrepreneurial organizations. They will simply exploit the next 
vulnerability. Addressing POEs will increase, not decrease, the need 
for security between the POEs to address the issue of drug trafficking.
    We should not let partisan politics stand in the way of securing 
the border. It is clear we have done so for many decades and through 
several administrations. We need to secure the border for public 
safety, National security, and human rights reasons. The mechanism of 
how this is done is far less important to sheriffs than getting it 
done. The idea that a wall is the only solution because it is permanent 
is misguided. A wall that is not monitored, enforced, or maintained is 
only an impediment not real security.
                   proactive immigration enforcement
    Sheriffs support the increased attention given to the border and 
welcome additional Federal resources to handle the immigration 
situation. However, sheriffs neither have the capacity to engage in 
proactive enforcement of Federal immigration laws, nor the 
responsibility to do so. Federal authorities best address these 
violations of Federal law. That being stated, sheriffs are steadfastly 
committed to cooperation and collaboration with all our Federal law 
enforcement partners. We value these relationships and we remain 
committed to working together for the safety and security of the 
citizens that we serve.
                                closing
    Sheriffs know first-hand that there is in fact a crisis on our 
border. We live with the impacts of this crisis every day. We fully 
support efforts to secure our border. Moreover, we demand action on 
this issue. There are compelling and undeniable reasons to do so. We 
need to move forward and secure our border immediately. The investment 
made in doing so will be returned many times over in reduced crime, 
reduced illegal drug use, and a reduction of other societal and 
humanitarian costs. Sheriffs are committed to providing the highest 
level of public safety services to all people of our counties. We 
proactively attack crime problems and criminal behavior without regard 
to the immigration status of the criminals involved and will continue 
to do so.
    I am grateful of the opportunity to provide testimony to this 
subcommittee. It is important, if not critical, that you hear from 
border county sheriffs who are local experts on these matters with no 
agenda other than providing public safety to our respective 
communities.

    Miss Rice. I want to thank all the witnesses for their 
testimony, and I will remind each Member that he or she will 
have 5 minutes to question the panel.
    I will now recognize myself for questions.
    Bishop, I would like to start with you. There has been a 
lot of heated rhetoric coming from this administration, and 
specifically, the President, but others in the administration 
regarding the type of people who are coming here and requesting 
asylum.
    I think it is really important if we are going to have an 
honest conversation here for us to agree that we are going to 
deal with the facts. So what I would like to ask you to do is 
if you could just talk more about the people that you are 
servicing--asylum seekers, the family units.
    Can you just talk more about what brought them here, what 
they are fleeing, their character, what they are like? I mean, 
if you listen to this administration, these are all murderers 
and rapists and drug dealers, and I just don't think that that 
is factually accurate. But tell me if I am wrong.
    Bishop Seitz. We who work with the asylum seekers every day 
wish that those who speak about them have the chance to simply 
meet them and talk to them, and we invite people to come and 
visit our border area and to spend a few moments with them.
    We have been receiving, for instance, at the shelter on my 
property around 80 a day, as an average, and I have the 
opportunity just about every day to go by and visit. I find 
people that are extremely humble, very grateful, good moms and 
dads who have loving relationships with their children.
    I think that if that relationship wasn't there, it would be 
pretty obvious to us, but we see the way that they care for 
them and their concern for them, for instance, when they have a 
cold or a fever or something like that. They are people of 
tremendous faith, and they are often asking us to pray and to 
pray with them.
    I have been inspired by my opportunity to be with them. We 
have--in the months since November that we have opened, had 
this shelter. We have not had a single experience of violence 
or any kind of expression like that--of anger, even. All we 
have found is people humbly trying to escape very, very 
difficult situations in their home countries. Some of their 
children show signs of malnutrition that they just--because of 
the chaos and violence in their countries, they can't make a 
living anymore.
    Miss Rice. Thank you, Bishop.
    Mr. Olivares, I want to talk to you because I have to say 
that I was--I was really well-educated being recently down at 
the border, and I wish that every single American, and 
certainly--well, at the very least, every Member of Congress 
could go and look.
    We happened to be in McAllen, and I would just like to see 
if you could kind-of expound on where the wall is going up, and 
how--to just explain a little bit more about this no-man's-
land, because I didn't understand it until I actually saw it; 
that the wall is not actually preventing anyone from coming to 
this country and claiming asylum. It literally is just walling 
off all those thousands of acres and taking property from 
people without just compensation.
    When I--you know, I am from New York. I knew the President 
before he was President, and I would--I feel safe saying that 
if anyone tried to take any part of his real estate empire away 
from him, he would not allow that to happen. But he didn't have 
to worry about that because he had an army of lawyers, and he 
could afford to pay for it. These people don't.
    So I think it is really important for the American people, 
and certainly Members of Congress, to understand where this 
wall--I mean, we met with a CBP officer, and we said: What is 
the No. 1 thing that we can give you that will help you here? 
They didn't say a wall, he didn't say a wall, he said we need 
more personnel, which is what Congress allotted $65 million 
for.
    So having said all of that, if you could just explain a 
little more about what--just if you can, what is going to be 
created by putting this wall in a place that is--really just 
going to create, as you said, a no-man's-land?
    Mr. Olivares. Thank you, Madam Chair. That is right. In 
Hidalgo County, there is a flood control levee that runs 
parallel to the river, more or less. Now it is not exactly 
parallel because the river turns and twists, but on that border 
control levee, that is where the Government is planning to 
build the border wall.
    Now that levee is, in some places, half a mile from the 
river, three-quarters of a mile, over a mile from the river, 
and all of that area is going to be walled off completely. Now, 
who lives in that area? One of our clients, Mr. Cavazos, he is 
a 69-year-old man, he is paralyzed from the waist down.
    He makes a living by raising cattle and leasing some of his 
riverfront property for recreational purposes. Now his entire 
property is going to be walled off. His tenants have already 
explained that if the wall is built as planned, they are not 
going to renew their lease, so he is going to lose his 
livelihood, him and his family.
    These are communities that have been there for a long time. 
I wish these were, you know, individuals concerned about losing 
their empire. They are losing their livelihood, it is changing 
their way of life, and this stretches along the southeast tip 
of Texas, Cameron County, Hidalgo County, and Starr Counties.
    Another concern there is the flooding concerns. We are in a 
hurricane zone. Every summer, we get tropical depressions, 
tropical storms, and hurricanes most summers. Now, what is 
going to happen when you wall that off?
    If the river overflows, the wall is going to prevent water 
from running over. Even though there are still borders, still 
posts that are going to make up the wall, that gets clogged up 
with any flooding, with debris and branches and trash and what 
not.
    So that is going to do two things. It is--the water is 
going to stagnate in the no-man's-land and is going to divert 
disproportionately to the Mexican side.
    On the northern side of the wall, especially in the more 
populated areas in Starr County, such as Rio Grande City and 
Roma, Texas, the water that would normally run off into the 
river and drain into the Gulf of Mexico is going to be 
prevented from draining into the river because of the wall.
    It is literally going to create a dam effect and it is 
going to flood those cities. In my written submission, I have 
included some of the flooding models that have been developed 
about it and I worry seriously that 1 day, when the next 
serious hurricane hits our area, if this wall is built, we are 
going to be crying over the deaths of people quite literally.
    Miss Rice. Well, it is also not going to prevent anyone 
from crossing and reaching American soil. Thank you. Mr. 
Higgins, you are recognized for 5 minutes.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Let us clarify that the layered security that we describe 
as called for on our Southern Border, calls for enhanced 
technology to detect a pending illegal crossing, enhanced 
physical barrier to delay and deter that illegal crossing, 
enhance capacity to respond to the detected and delayed or 
deterred illegal crossing, with all-weather roads, additional 
vehicles, manpower, et cetera, and enhanced capacity to process 
those that have been apprehended once they have crossed into 
our country, if they do so successfully.
    So did the concept of a--that has been sort-of presented to 
America, let us be solid with this, my friends. I thank you for 
appearing, I appreciate your passion and I recognize our 
differences in ideological perspective of this challenge we 
face.
    But we are at a point of collapse in our Southern Border. 
The sovereignty of our Nation is at stake. We have to move 
forward with a cautious focus on what it is to maintain the 
America that we serve.
    This layer of security that we are describing is not the 
Great Wall of China. The--I would ask Sheriff Napier, regarding 
manpower and humanitarian crisis--there is a crisis on the law 
enforcement side of this patch. If you had more money, could 
you hire more deputies, sheriff?
    Sheriff Napier. Ranking Member Higgins, it is very 
difficult right now to hire law enforcement officers. If we had 
more money--currently struggling, as most law enforcement 
executives are, with hiring good people. It is a very difficult 
environment right now to hire people in the law enforcement, 
whether they be on the Federal side or the local side. We need 
some----
    Mr. Higgins. How long have you been a sheriff on the 
border, sir? Just to clarify?
    Sheriff Napier. I have been in law enforcement at the 
border area for 30 years and----
    Mr. Higgins. Have you ever seen anything like this right 
now?
    Sheriff Napier. I have never seen anything like our current 
crisis. The crisis has always existed. The current crisis is 
staggering.
    Mr. Higgins. Are there locations along the border that you 
could refer to that would benefit from enhanced physical 
barriers with 21st Century technology to detect and with 
enhanced capacity to respond? Are there areas that--of our 
Southern Border that would be more secure should we make this 
investment?
    Sheriff Napier. This strategic deployment of physical 
barriers along our Southern Border will always be part of a 
total border security package and administrations, both 
Republican and Democrat, have realized that in the past and 
supported physical barrier deployment.
    It will always be just one part of this total picture of 
border security. We will always need to buttress that with 
technology and human resources. So it is going to have to be a 
very comprehensive solution because the border is not a single 
thing, it is 2,000 linear miles and varying topography, varying 
land use----
    Mr. Higgins. Exactly.
    Sheriff Napier. Issues. So we are going to have to look at 
a very comprehensive solution.
    Mr. Higgins. Thank you for that. Bishop, I thank you for 
your service to the church and to our fellow man, sir. The sun 
does not set upon the glory of God through the church and I 
thank you for your service and your compassion.
    I would ask you, does the U.S. Conference of Catholic 
Bishops work with its counterparts in Central America to warn 
parents and children of the dangers of this trek? You talked 
about malnutrition, and I am certainly concerned, as a 
compassionate man, about these families.
    What is the church doing in Central America to stem this 
flow before we reach this humanitarian crisis that you are 
encountering in your shelters?
    Bishop Seitz. Right. Thank you very much for that question. 
I have had the opportunity to serve for a short time in Central 
America and to visit, and I have friends who are members of the 
clergy there. They have been working very hard since my first 
exposure to the life there to dissuade people from leaving 
their home and to begin to address to the degree that----
    Mr. Higgins. Just in the interest of time, bishop, I don't 
mean to cut you off. So is there an active engagement between 
the church and authorities and organizations in Central America 
to deter this trafficking of humans?
    Bishop Seitz. There is an active engagement. But the 
problem is that the governments are so weak and so corrupt that 
there is no authority on the governmental level that people can 
go to. The church is about the only one.
    Mr. Higgins. Thank you for that answer. I have one brief 
question, Madam, if you will indulge me, for the bishop.
    Regarding the sovereignty of the church and as it relates 
and compares with the sovereignty of our Nation, the church has 
been a light for the world for 2,000 years, a place of refuge, 
a place where any child of God could seek spiritual prosperity.
    But the sovereignty of the church has been protected by the 
security of the church. One of the most famous walls in history 
is the wall around the Vatican.
    I would ask you, Bishop, in the area that you serve, do 
your churches lock their doors after hours?
    Bishop Seitz. Many of them do. I would point out that that 
wall you refer to at the Vatican also has arms embracing and 
opening to the world. If you have been at the----
    Mr. Higgins. Yes, as we do. So we have 328 ports of entry 
for legal entry into our country in the United States of 
America.
    Madam Chairwoman, I thank you for your indulgence. My time 
has expired.
    Thank you all for appearing today.
    Miss Rice. The Chair recognizes for 5 minutes the gentleman 
from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Madam Chair.
    Bishop, can you discuss the long-term impacts of the 
President's policies on immigrant families? How will the 
continuation of these policies affect the ability of 
organizations such as yours to care for families?
    We see that we have gotten into this habit of locking 
children in cages, in fences, and feeling that that will deter 
people from coming here.
    But there has to be something that is pushing these people 
to come here, irrespective of the dangers that they know, 
irrespective of the plight that they might face, that they are 
willing to take that chance.
    You know, Moses was put in a cradle and pushed down a river 
in order to save him. That must have been dangerous to do. But 
the options that his mother had at that time, she was willing 
to take that chance. Talk to me about the impacts of these 
policies of the President.
    Bishop Seitz. Well, one of the most important points that I 
think I could share today is that if we really want to address 
border security, we need to look at the sending countries and 
their circumstances there.
    Mr. Payne. Right.
    Bishop Seitz. Which are beyond what most Americans can even 
imagine. People are fleeing. They are not simply coming because 
they want a better car. They are fleeing for their lives and 
for their children's lives.
    We as a country can do much to support the improvement of 
the situations in those countries, as we worked with Colombia, 
for instance, to improve their circumstances.
    What we are creating here in this country now is extremely 
concerning. The incarceration that many of these asylum seekers 
are receiving is having long-term effects on their health, 
especially the health of their children. I talked to kids who 
were incarcerated at Tornillo and they are still having 
nightmares and having to deal with their experience.
    Families that, even with documents, very often are living 
in fear when they see Border Patrol vehicles and so on, because 
they believe that simply because they look like they are coming 
from that place and might not have documents, they are already 
under suspicion.
    Mr. Payne. Absolutely. We know in a lot of the cities and 
areas along the border that have American citizens that might 
look like the people, the immigrants that are coming up, in 
cities, they are stopped on the streets and asked, you know, 
Are you legal? Who are you--what are you--I mean, you know, I 
am just concerned about the road that this country is going 
down.
    I mean, you know, when was asylum right now that it--like, 
wants to be vilified? It makes me ask what people are allowed, 
you know, to come here, give us your tired, your poor, your 
huddled masses yearning to breathe free. Now the borders are 
locked. No entrance. We don't want anyone.
    Bishop Seitz. Yes. It is also interesting that we helped 
write those asylum laws. We have held other countries 
accountable, who have received a much higher percentage than we 
are beginning to look at here in this country.
    Mr. Payne. Yes. Well, thank you. It just makes me wonder 
what it is about these people, that now we are--want to shut 
our borders.
    With that, I will yield back.
    Miss Rice. Chair recognizes for 5 minutes the gentleman 
from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you for having 
this hearing today.
    Sheriff Napier, thank you for coming before the 
subcommittee. I would specifically like to thank you for a 
portion of your written statement where you said: ``To suggest 
that there does not exist a crisis on our Southern Border is 
intellectually dishonest. To be steadfast in that assertion, 
despite clear evidence to the contrary, is to be intellectually 
dishonest with malice. To promulgate this idea that it is a 
crisis created or manufactured by the current administration is 
simply false.''
    I recently was part of a Congressional delegation, the trip 
to Yuma, Arizona, a neighbor of yours. I must say, I could not 
agree with you any more, that your assessment reflects that 
this clearly is a crisis, sir.
    While I was there, I witnessed first-hand the lack of a 
secure border in areas along the Colorado River, which allows 
the cartels to smuggle drugs into our country, drugs that end 
up affecting all of American citizens on one level or another.
    There is also a newer problem, with a surge of people who 
seek to be apprehended, seek to be brought into custody and say 
the prescribed words and be allowed to have access to American 
jobs, American health care, education, like they are law-
abiding Americans, with no ability to verify their claims.
    Is the experience that I recently had while I was in 
Arizona with a delegation of Congressmen and women, is this 
experience what you see on a daily basis, sir?
    Sheriff Napier. Thank you for the question. It is clear 
that we have a public safety and humanitarian crisis on our 
Southern Border. We know that the escalation of the trafficking 
of hard narcotics into our country is unprecedented.
    I don't say that as a partisan statement or a political 
statement. It is a factual one. We have never seen quantities 
of methamphetamine coming into our country or heroin in the 
quantities that it is coming in now.
    When we interdict 58 pounds of methamphetamine, we know two 
things: One, that methamphetamine is not being cooked in the 
United States, and furthermore, that is not going to be 
consumed in my county, it is going all over our Nation.
    When we interdicted 13,000 fentanyl pills, we know they 
were not manufactured in the United States and they were not 
destined for consumption in Pima County, this is a National 
problem. The public safety aspect of our border crisis is 
compelling.
    It is not a political statement. I am charged with public 
safety in my county, not partisan politics. The humanitarian 
crisis is also compelling. Deputies recover dozens of bodies a 
year in the deserts of my county.
    How we cannot think of that as a humanitarian crisis--and 
as the bishop points out, people in Central America, El 
Salvador, Guatemala, Honduras are facing desperate life 
conditions that we, in this room, with food in our stomachs, a 
roof over our head and safety, cannot imagine and they are 
coming here out of desperation.
    But that journey is arduous, it is dangerous, it is--it is 
fraught with all kinds of perils, criminality, sexual abuse, 
financial abuse. This is a humanitarian and public safety 
crisis of compelling and unprecedented nature. It is not a 
manufactured crisis or a partisan crisis.
    I hope that the people in Washington, DC, can come across 
the aisle, both Republican and Democrat, and look for solutions 
to this problem, because long after this is not fodder for 
political debate in Washington DC, Pima County and the border 
region will be my home. That is my home, it is where my family 
lives, it is where my granddaughter lives.
    So this is significantly important to me and the people of 
my county.
    Mr. Joyce. Thank you, sir. Like you, I do believe it is 
necessary to build protective barriers where it makes sense. We 
do have the ability, with some companies like I saw, to deploy 
a mile of new barrier every single day.
    In the interim, CBP has a critical shortage of manpower, 
which has already resulted in agents being pulled from their 
primary role in order to protect the border. DHS and the 
President have explored the option of increasing the National 
Guard presence to alleviate personnel shortages.
    In your experience, Sheriff, do you believe that that would 
be helpful?
    Sheriff Napier. It does have great efficacy when we can 
take military assets, military personnel, and deploy them to 
non-enforcement, non-contact-type activities that otherwise 
Border Patrol or CBP would be tasked with doing.
    That allows them to deploy their resources on a front-line 
basis to bolster their capacity. So it makes perfect sense from 
a public policy standpoint and from an operational deployment 
of personnel to bolster those resources with military personnel 
in non-enforcement, non-contact roles, yes.
    Mr. Joyce. Thank you, sir. Thank you for protecting our 
country. Thank you for protecting the sovereignty of our 
country.
    Sheriff Napier. Thank you.
    Mr. Joyce. Madam Chair, I yield.
    Miss Rice. Thank you. The Chair recognizes for 5 minutes 
the gentlewoman from New Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you, Madam Chair.
    Mr. Barela, it is great to see a fellow Las Crucen at the 
witness panel and thank you so much for your work in border 
life, border trade, and border opportunity, I deeply appreciate 
it.
    As you know, last month CBP reassigned hundreds of port 
officers to Border Patrol sectors along the Southwestern 
Border, and in my district in Santa Teresa port of entry, which 
with you are well familiar, we lost an estimated 20 percent of 
our work force, resulting in the closure of multiple commercial 
lanes and a wait time of up to 6 hours for trucks to cross the 
border.
    Can you just please describe how these wait times are 
affecting the business of local companies that depend on a 
stable supply chain?
    Mr. Barela. Congresswoman, it is great to see you, as well, 
and also a fellow Georgetown grad, so--if I might be digressing 
a bit. But I want to be very clear about what is happening with 
the wait times, and they are indeed starting to have a very 
devastating impact on the Borderplex region.
    Between 15 percent and 30 percent of the retail trade on a 
given time, any time of the year in our Borderplex region, is 
done by Mexican nationals. Frankly, we don't have the bricks 
and mortar problem that many, many communities have because 
Mexican nationals, with the burgeoning middle class, because of 
trade--and I mentioned in my comments that the unemployment 
rate has dropped, is creating this type of opportunity.
    So, yes, we are also experiencing problems with individuals 
crossing to support retail trade in our area on the U.S. side 
of the border. The manufacturing sector, the logistics sector, 
all of the other sectors that are into the symbiotic 
relationship between the two countries are beginning to have a 
severe and very, very adverse impact.
    We represent over 250 businesses in our region, and we have 
had dozens of people call us in the last couple of weeks 
describing the very hard, very difficult impact, adverse impact 
that they have experienced.
    In many cases, there have been temporary layoffs, there 
have been shuttering of businesses, there have been trucking 
companies that have been idling for up to 24 hours, not only in 
Santa Teresa but on the El Paso side of the border, and that is 
simply unacceptable.
    There are businesses in each and every one of your 
districts and in States that rely upon this very sophisticated 
supply chain that will have to come to a closure situation 
sooner than later if we don't resolve this issue.
    Ms. Torres Small. Thank you, Mr. Barela. I would love to 
let you go on, I have a few more questions----
    Mr. Barela. Sure.
    Ms. Torres Small. But I deeply appreciate your testimony 
there.
    You mentioned some of the modernization that we have 
experienced in Santa Teresa. But would you say--do you believe 
that there are more Federal investments that could be made to 
allow Santa Teresa port of entry to continue to increase trade 
to Mexico?
    Mr. Barela. Absolutely.
    Ms. Torres Small. Thank you.
    Mr. Barela. Thank you, Congresswoman. The----
    Ms. Torres Small. Thank you. I think just a yes or no on 
this one, sir.
    Mr. Barela. Yes, absolutely.
    Ms. Torres Small. Thank you. I would like to move on now 
because, as you know last month, CBP began releasing thousands 
of individuals, mostly families, into border communities with a 
notice to appear at immigration hearings.
    In my district, CBP has at times released hundreds of 
people a day. Our local and county governments, non-profit 
organizations, and faith-based organizations have stepped up 
with empathy, care, and compassion, but the administration has 
failed in assisting these local communities with this Federal 
issue.
    Bishop Seitz, how is your organization affected when CBP 
does not notify you in advance of releasing hundreds of 
individuals and family members into your community?
    Bishop Seitz. It has a tremendous effect on us because we 
are dealing, as I mentioned, with something like 800 to 1,000 
people a day. We are capable of receiving them and providing 
them a place, but if they are simply--it is simply announced 
that they are going to be released at the last moment or, you 
know, without any preparation, it is difficult.
    Border Patrol hasn't had experience in that. They used to 
hand them off to ICE, but now that is not always happening.
    Ms. Torres Small. I appreciate you bringing up that point. 
What are the challenges you see with helping migrants reach 
their final destinations and arranging travel arrangements that 
the sponsors are paying for?
    Bishop Seitz. Well, very often, we are finding that people 
are being released without having been processed, without 
receiving the papers that they need, without the documents that 
they would need to travel further, and also sometimes to the 
streets.
    So we are unable to connect them with that network we have 
created to assist them.
    Ms. Torres Small. Thank you, Bishop.
    I yield back.
    Miss Rice. Thank you. The Chair now recognizes the 
gentleman from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairwoman.
    To each of you, I want to thank you for taking time away 
from your families, for traveling to be with us today to 
discuss these important issues.
    I believe that what we are talking about today is the most 
pressing issue that we face as a Nation. It is something that 
we are grappling with each and every day as Members of 
Congress.
    Sheriff, I want to thank you for your 30-plus years of 
service to the people of your State, the people of your 
district. I want to ask you--you have--throughout your 
testimony, I see that you speak of what appear to be multiple 
crises that exist along our Southwest Border.
    You speak of a drug trafficking crisis. I see here that you 
have listed, over a period of just over a year, 5 different 
seizures of methamphetamine that total over 200 pounds of 
methamphetamine.
    You talk about seizures of fentanyl. You talk about 1 
seizure alone in 2018 being 13,000 dosage units. I don't see 
anything here about cocaine. I am assuming that we have not 
stopped the flow of cocaine into the country and that we are 
continuing to see that drug flow. Would that be correct?
    Sheriff Napier. That is correct. Cocaine is less pronounced 
right now, but methamphetamine and fentanyl, the opiate-based 
drugs, are our major concern. But cocaine has not gone away by 
a long stretch.
    Mr. Guest. Sheriff, you talked about, or touched on it very 
briefly, the amount of narcotics that you are seeing coming 
across our border, that is not personal use. Those are drugs 
that are intended to be introduced first into the country and 
then those are drugs that are going to be shipped across our 
country and sold in each of our communities to our families and 
friends. Is that correct?
    Sheriff Napier. That is correct. Shocking is the fact that 
there were 70,000 opioid-related overdose deaths last year. 
That is more significant in number than the number of deaths 
from automobile accidents. Deputies now carry medicine on their 
person--medicine--like they would a flashlight or a radio--in 
the hope of saving some lives.
    This is unthinkable. To not caption this as a crisis, I 
don't understand.
    Mr. Guest. Sheriff, I want to talk very briefly also--you 
talk on page 4 of your report about the human trafficking 
crisis. Can you talk about that just very briefly, what you are 
seeing along the Southwest Border?
    Sheriff Napier. Well, we know that the migrants are being 
exploited both financially and sexually, criminally, in their 
journey from Central America, in Mexico and in the United 
States. Estimates say that some of these migrants are paying 
upwards of $7,000 to be shepherded into the United States and 
then brought a very short distance into the United States and 
then abandoned. As a result, they don't have sufficient water 
or food to care for themselves and that ends in death in the 
desert.
    We know that the human smuggling--the RAND Corporation just 
did a study that says human smuggling may be upward of a $2 
billion industry, operating in collaboration with the drug 
cartels, so they may not be actually involved, but they control 
the avenues of ingress into the United States.
    So this is a very serious public safety problem that--the 
profiteering off of the migrants is a very significant problem, 
and to the tune of probably upward of $1 billion a year.
    Mr. Guest. Sheriff, you also said in your report there on 
page 4 that just this week--and that is the week that you wrote 
the report--that there were heavily-armed persons who were 
observed escorting a migrant woman and child at the border. You 
say in your report these individuals were wearing tactical gear 
and possessing military-style equipment. The public safety 
threat of this is significant. Could you expound on that just a 
little bit, please?
    Sheriff Napier. This is a relatively new phenomenon, but we 
had on video surveillance a woman and an 8-year-old child being 
escorted by 5 heavily armed military-style-equipped persons, 
shepherded them to the border and then crossed the border, 
which obviously presents a public safety challenge to us in law 
enforcement that might have confronted these people.
    They were heavily armed. They were very, very serious 
criminals. We don't know what engagement this woman and her 
child made with these armed persons to get there, which ought 
to give anybody pause from a humanitarian standpoint of what 
agreement was made between that woman and an 8-year-old child 
to be brought into the United States in that manner?
    Mr. Guest. So we have operating to some extent across our 
Southwest Border heavily-armed individuals who are wearing 
tactical gear and using military equipment that are involved in 
both human trafficking and drug trafficking. Is that your 
testimony, Sheriff?
    Sheriff Napier. That is my testimony and that is also 
something that is not new. It has been going on for 30 years. 
It was marijuana trade prior to this, and it has been going on 
for decades.
    Mr. Guest. Then, finally, you speak about the immigration 
crisis and the effect that it has on your community, on page 5 
and then page 6, about the near-collapse of social services 
networks and the ability to handle the increase in immigration. 
Can you speak on that very briefly?
    Sheriff Napier. Yes, after the asylum seekers are granted 
an asylum hearing, they are being released into our community. 
We have, as compassionate Christian people, an affirmative 
responsibility to provide adequate care for them. That has 
really strained our NGO's and our social service network, to 
the point of collapse.
    We had 7,000 people released just over the last several 
months, more than 200 just in the past week. It is very 
straining to our social service networks.
    We need some support out of Washington, DC, to our NGO's, 
our local nonprofits and our law enforcement and be able to 
confront this crisis. We need real relief. We need real 
resources. We need meaningful action out of Washington, DC, to 
confront this crisis that is not academic in our part of the 
world. It is a very real thing that we live with every day.
    Mr. Guest. Thank you, Madam Chairwoman. I yield back.
    Miss Rice. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Madam Chair.
    I thank the witnesses for appearing.
    Bishop, with your consent and permission, may I call you 
Father?
    Bishop Seitz. You may.
    Mr. Green of Texas. My grandfather was a preacher, and I 
have great reverence and respect for persons who are what, in 
my community, we call men of God.
    Bishop, you may not be familiar with this, so I will call 
it to your attention more specifically. Voltaire, the great 
writer, philosopher, intellectual, reminded us that those who 
can make you believe absurdities can make you commit 
atrocities.
    Bishop, would you agree with Voltaire?
    Bishop Seitz. Certainly.
    Mr. Green of Texas. Father, if I may ask, do you believe 
that the women and children who are paying these inordinate 
amounts of money, who are putting their children at risk of 
being harmed, or the term sexually assaulted--do you believe 
that they are an invading force?
    Bishop Seitz. I think it is unfortunate when they are 
characterized in that kind of manner, when people speak in 
generalities to the very small percentage who are taking 
advantage of the situation, as though that characterizes the 
whole.
    Mr. Green of Texas. May I assume that you do not consider 
them an invading force?
    Bishop Seitz. I don't think we have ever seen an invasion 
like that before.
    Mr. Green of Texas. Bishop, Father, if I may say so, do you 
think that these persons should pay a fee to be processed, who 
are coming? Traditionally our law has not required a fee of 
them. Do you think they should pay a fee?
    Bishop Seitz. Well, it is something I would have to give 
more thought to, to give you a complete answer. Certainly they 
can be part of that process. But unfortunately, the fees that I 
know many people are facing are extraordinary right now. I have 
talked to people from Canada who received citizenship here, it 
cost them $10,000.
    Mr. Green of Texas. Well, we are talking about now those 
who are seeking asylum, who have traditionally not had to do 
this in the sense that I am hearing now? I just heard a report 
about some desire to affix a fee.
    But moving right along. You mentioned Canada. Now, Father, 
this question goes to the heart. Do you believe that if these 
were white babies coming from Canada, we would separate them 
from their mothers to the extent that we have? That we would 
lose them, such that we cannot reconnect them to their parents?
    Dear Father, do you believe this?
    Bishop Seitz. I am concerned that, at least unconsciously, 
there may well be a bias against people of color that sometimes 
expresses itself among some.
    Mr. Green of Texas. Dear Sheriff, my dear brother, I assure 
you, I concur with you and I think that there is more than a 
humanitarian crisis. But I ask you candidly, do you believe 
that, just as it relates to the humanitarian crisis you have 
identified, do you believe that a wall alone will solve the 
humanitarian crisis? A simple yes or no will do for starters, 
given that I have little time left.
    Sheriff Napier. If you are limiting me to a yes or no 
answer, the answer is no, it will not solve the problem by 
itself.
    Mr. Green of Texas. I thank you. I believe you have the 
intellect to explain further that there are other aspects of 
this that have to be dealt with. I concur with you.
    But I also know this. A great country is not going to be 
measured--its greatness is not going to be measured by how we 
treat the people who live in the suites of life. It will be 
measured by how we treat people in the streets of life, people 
who are coming, people who should be allowed to benefit from 
the Golden Rule that we would apply to ourselves, Father. Do 
unto others.
    My time is up and I thank the Chair for the additional 
seconds. I yield back.
    Miss Rice. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
California, Mr. Correa.
    Mr. Correa. Chairwoman Rice and Ranking Member Higgins, 
thank you very much, both of you, for holding this most 
important hearing.
    Gentlemen, thank you for being here, as well. It is a very 
interesting issue we have before us. I just got back from 
Mexico City. I was there, Thursday, talking to Mexican 
officials about NAFTA, NAFTA II.
    While I was there, the United States became--I should say 
Mexico became America's biggest trading partner, to a great 
extent because of the tariffs on Canadian and Chinese products. 
But you begin to see the patterns here.
    If you were to take a pencil and draw a circle, plus, minus 
200 miles on each side of the border, you would probably have 
the 10th-largest economy in the world. Just that border region. 
A lot of economic activity.
    Two months ago, I was in--took a tour, Honduras, Guatemala, 
El Salvador. Wanted to look at what was going on at just where 
folks lived, try to live, and where people immigrate from.
    Saw a lot of eye-openers. The biggest thing that I came 
back with, the a-ha, was that all of our drug money, people, 
our insatiable thirst for drugs in this country, it doesn't 
matter how you get it here. This society consumes drugs at an 
alarming rate.
    Those dollars over there are creating so much chaos, so 
much corruption that there isn't anybody there who can resist 
that. They tell the folks over there: Either you take the gold, 
or we are going to put some lead in your head.
    That is what is creating a lot of the chaos. There are no 
institutions of law. You don't have predictability so 
businesses can set up to create jobs because there is so much 
corruption.
    At the same time, I did find some silver linings in those 
dark clouds. In El Salvador, I got to visit a fusion center. 
Sheriff, you might know what a fusion center is, where we had 
the USDA, U.S. FBI, U.S. authorities, local authorities working 
together to identify the bad guys, the bad girls coming in and 
out of Central America and the United States.
    Sheriff, you mentioned a couple of things. You know, I am 
trying to figure out the big picture. We can talk about the 
refugee crisis. We can talk about records. But the fact of the 
matter is, we have had a refugee crisis from Central America in 
this country since the 1980's. Yet we have ignored it.
    Now, because these caravans--7,000 people--and I asked 
people in Honduras, I said, Mr. President, who is putting these 
caravans together? Could never get a straight answer. I know 
social media had something to do with it.
    But I look at it from a political perspective. Both sides 
have something to gain. You got a TV camera show 7,000 people, 
it is an invasion. But 20 years ago, it was quiet. Unless we 
create economic development in Central America, you are not 
going to stop this crisis.
    It is interesting, because the Chinese--talking to El 
Salvador's president, the Chinese want to build a deep water 
port in El Salvador. They want to buy 75 percent of the 
Salvadoran coastline to bring them economic development.
    I propose to you gentlemen, folks, this is our economic 
sphere of influence. It is to our best interest to stabilize 
Central America.
    Great speakers, I have heard your comments. We do have a 
crisis. It is a humanitarian crisis driven by people that are 
desperate. My district is 200 miles from the border. The other 
day, my local priest from one of my local churches came to me 
with a refugee candidate, both hands chopped off. Is this a 
person who would be a refugee? We are going to have to figure 
it out.
    But, Sheriff, you did have an interesting thought, which 
was to open up centers to apply for refugee status in Central 
America. I hope we figure this out. Try to put the politics out 
of this issue and work on a, for lack of a better term, a 
Marshall plan from Central America.
    Because 70 years ago, it was to our best interest to 
stabilize Europe. It is to our best interest today to stabilize 
the Americas. It is common sense. Mexico is kind-of stable. Now 
we have got to figure out Central America. By the way, the 
Mexicans are also addressing this issue because it is causing 
them challenges, as well.
    Madam Secretary, I am running out of--or, Madam 
Chairperson, I am running out of time. I yield the remainder of 
my 2 seconds.
    Miss Rice. Thank you. Thank you, Mr. Correa.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the subcommittee 
may have additional questions for the witnesses, and we ask 
that you respond expeditiously in writing to those questions.
    With that, I ask unanimous consent to insert a statement 
from Church World Service into the hearing record. Without 
objection.
    [The information follows:]
              Statement of the Church World Service (CWS)
                             April 30, 2019
    As a 73-year-old humanitarian organization representing 37 
Protestant, Anglican, and Orthodox communions and 23 refugee 
resettlement offices across 17 States, Church World Service urges 
Congress to cut funding for immigration detention, deportation, and 
border militarization and to demand accountability over the Department 
of Homeland Security (OHS). We urge Congress to reduce funding for 
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CBP) that has fueled family separation and the immoral and 
illegal treatment of asylum seekers and other immigrants.
    CWS urges the administration to rescind its April 2018 information-
sharing agreement between DHS and the Department of Health and Human 
Services (HHS) that turns HHS into an immigration enforcement agency 
and prolongs family separation. The agreement ``requires HHS to share 
the immigration status of potential sponsors and other adults in their 
households with OHS to facilitate HHS's background checks.'' The 
population of detained unaccompanied children ballooned, and although 
HHS announced that it would stop requiring fingerprints from all 
household members of sponsors, ORR continues to share information about 
all potential sponsors with OHS, needlessly prolonging child detention.
    CWS is strongly opposed to any proposal that would undermine Flores 
protections or increase family incarceration, which is plagued with 
systemic abuse and inadequate access to medical care. These conditions 
are unacceptable, especially for children, pregnant and nursing 
mothers, and individuals with serious medical conditions. The American 
Association of Pediatrics has found that family detention facilities do 
not meet basic standards for children and ``no child should be in 
detention centers or separated from parents.'' CWS urges Congress to 
reject any proposal that would expand family detention or violate the 
Flores agreement's long-standing consensus that children should not be 
detained for longer than 20 days.
    CWS is equally troubled by proposals to weaken or eliminate 
provisions in the Trafficking Victims Protection Reauthorization Act 
(TVPRA), which provides important procedural protections for 
unaccompanied children in order to accurately determine if they are 
eligible for relief as victims of trafficking or persecution. Weakening 
existing legal protections, especially for children, undermines the 
United States' moral authority as a leader in combating human 
trafficking and increases vulnerabilities for trafficking victims by 
curtailing access to due process, legal representation, and child-
appropriate services.
    Congress and the administration should utilize community-based, 
least-restrictive alternatives to detention (ATDs) that connect 
individuals with family members, faith-based hospitality communities, 
and local services to help them navigate the legal system. For example, 
the Family Case Management Program (FCMP) is effective and less 
expensive than detention, allowing people to be released, connecting 
them with legal counsel, providing case supervision, and helping with 
child care. The program is 99 percent effective at having families show 
up for check-ins and court appearances and also ensures departure from 
the United States for those who are not granted protection.
    Immigration policies that repeatedly result in death do not make us 
secure. The death of two children in CSP custody pointedly highlights 
the urgent need for shifts in policy. Border crossings have declined to 
near-record levels; the uptick in arrivals this year stems from 
families fleeing violence, persecution, and desperation from El 
Salvador, Honduras, and Guatemala. Militarizing the border and 
separating families undermine our moral and legal obligations and are 
ineffective, as families continue to seek safety. The United States can 
humanely process all families and individuals who arrive at our borders 
seeking protection.
    CWS strongly opposes sending troops to the border and any other 
policy that further militarizes our border. Border communities are some 
of the safest in the country. The most recent data available shows each 
Border Patrol agent along the Southwest Border apprehended on average 
about 3 migrants per month, far below fiscal year 2000 levels 
(approximately 16 migrants per month). With CBP's all-time high funding 
for border security procurement and development alone, legislators 
should be looking for ways to rein in CBP's draconian enforcement 
efforts.
    As a faith-based organization, we urge Congress to hold the 
administration respecting the humanity and dignity of all asylum 
seekers, unaccompanied children, and others seeking protection.

    Miss Rice. The subcommittee record shall be kept open for 
10 days.
    Mr. Higgins. Madam Chair, I ask unanimous consent to enter 
into the record the following items--a brief from the Rand 
Corporation on human smuggling, and the January statement on 
border security from the Southwestern Border Sheriffs.
    Miss Rice. Without objection.
    [The information follows:]
RESEARCH BRIEF, HOMELAND SECURITY OPERATIONAL ANALYSIS CENTER (An FFRDC 
       operated by the RAND Corporation under contract with DHS)
       Human Smuggling from Central America to the United States
  what is known or knowable about smugglers' operations and revenues?
    Each year, thousands of unlawful migrants from Central America are 
apprehended at the U.S.-Mexico border. Many or most of these migrants 
hire smugglers for assistance or pay others for rights of way at some 
point during their journey north.
    Of particular concern to policy makers is the possibility that a 
substantial share of migrants' expenditures on smuggling services is 
flowing to transnational criminal organizations (TCOs). TCOs that 
benefit from smuggling migrants from Central America to the United 
States across the U.S.-Mexico border represent a potential threat to 
homeland security. They can create, contribute to, or help to shape a 
criminal industry that exploits and harms the people smuggled, 
challenges the rule of law in U.S. border States and the countries 
along transit routes, and degrades confidence in U.S. immigration laws.
    To date, the U.S. Department of Homeland Security (OHS) and larger 
policy community have lacked evidence on the full extent and 
distribution of migrants' expenditures and the characteristics of the 
smugglers, whether they are TCOs or other types of actors. To fill some 
of these knowledge gaps, the Homeland Security Operational Analysis 
Center (HSOAC), a Federally-funded research and development center 
operated by the RAND Corporation, conducted a scoping study to 
understand how TCOs and other actors participating in human smuggling 
along routes from Central America (specifically, Guatemala, Honduras, 
and El Salvador) to the United States are structured, do business, and 
are financed. The quick-turn effort involved interviews with subject-
matter experts, a literature review, and an analysis of governmental 
and non-governmental data on migration and human smuggling.
                                findings
Types and Roles of Human Smugglers
    Many different types of actors are involved in moving unlawful 
migrants from Central America to the United States. These smugglers 
range from independent operators, to ad hoc groups, to loose or more-
formal networks, such as TCOs. However, only some of these networks 
appear to meet the statutory definition of a TCO, which describes a 
``self-perpetuating'' association that systematically uses violence and 
corruption and is structured transnationally. The table characterizes 
the spectrum of actors engaged in human smuggling.
    Smugglers commonly move between levels or can operate at more than 
one level along the spectrum, depending on their opportunities. 
Moreover, they offer a wide array of services to unlawful migrants, 
from ``pay-as-you-go'' arrangements (i.e., services provided by 
different individuals or groups, as needed, along the route) to ``all-
inclusive'' or ``end-to-end'' packages that cover migrants' travel from 
their point of origin to their final destination in the United States. 
A combination of organizational flexibility, fluid marker arrangements, 
and pervasive subcontracting suggests resilience that makes human 
smuggling hard to target. Facilitators--individuals who coordinate 
human smuggling--might be less replaceable and present a more fruitful 
avenue for intervention, but going after them might be challenging, 
especially when they are based in foreign countries, as is typical.

                                THE SPECTRUM OF ACTORS ENGAGED IN HUMAN SMUGGLING
----------------------------------------------------------------------------------------------------------------
                                    Organizational
          Type of Actor                Structure           Services        Group Membership    Geographic Reach
----------------------------------------------------------------------------------------------------------------
Independent operators...........  One ``cell''        Provide a discrete  Do not generally    Generally work in
                                   composed of one     service (e.g.,      work with other     one location, or
                                   or a few            transportation or   cells or actors.    between two
                                   individuals.        lodging).                               locations.
Ad hoc groups...................  Two or more         Provide multiple,   Generally unaware   Work in one, two,
                                   independent         complementary       of other actors     or more
                                   operators that      services.           and groups more     locations.
                                   may not always                          than one degree
                                   work together.                          of separation
                                                                           removed.
Loose networks..................  A larger number of  May provide end-to- Members may know    Working in many
                                   small groups that   end service along   only a limited      locations,
                                   usually work        the full route or   number of other     potentially the
                                   together.           a portion of the    members.            full route.
                                                       route.
More-formal networks............  A central figure    Provide end-to-end  Members generally   Working along the
                                   who coordinates     services.           know each other.    full route.
                                   groups that
                                   consistently work
                                   together.
----------------------------------------------------------------------------------------------------------------

Relationship Between Human Smuggling and Drug Trafficking
    Human smugglers and drug traffickers conduct similar activities--
providing illicit transportation services across international 
borders--and do so along common smuggling corridors, suggesting 
opportunities for overlapping business. However, the researchers found 
little evidence that drug-trafficking TCOs engage directly in human 
smuggling.
    Drug-trafficking TCOs do control primary smuggling corridors into 
the United States and charge migrants a ``tax,'' known as a piso, to 
pass through their territories. In addition, drug-trafficking TCOs may 
also coordinate some unlawful migrants' border crossings to divert 
attention from other illicit activities, and recruit or coerce some to 
carry drugs.
Preliminary Estimate of Revenues Associated with Human Smuggling
    Most TCOs' activities and revenues, apart from the piso, cannot be 
separated credibly from those of other actors that engage in human 
smuggling. However, the researchers were able to use data from OHS and 
other sources to construct a range of preliminary estimates of total 
revenue to all types of smugglers operating along routes from 
Guatemala, Honduras, and El Salvador to the United States.
    The researchers' preliminary estimate of those revenues ranged from 
about $200 million to about $2.3 billion in 2017. The breadth of that 
range reflects the uncertainty of the underlying estimates of unlawful 
migrant flows, migrants' use of smugglers, and smuggling fees.
    Separately, the researchers produced a preliminary estimate of the 
taxes, or pisos, that migrants pay to drug-trafficking TCOs to pass 
through their territories. Those payments could have ranged from about 
$30 million to $180 million in 2017.
    A lack of reliable data contributes to substantial uncertainty in 
both estimates.
                            recommendations
    HSOAC made three main recommendations for how OHS might use 
findings from this research to target human smuggling, allocate 
resources, and improve data collection.
    Target vulnerabilities of human smugglers.--OHS might consider 
expanding existing efforts to investigate payments to human smugglers, 
especially in the United States, and working more closely with formal 
and informal banking services to identify suspicious payments. DHS 
could also consider expanding current efforts to work with foreign law 
enforcement partners to disrupt smuggling operations.
    Use information from these revenue estimates to inform funding 
decisions.--DHS could draw on information on the value of the human 
smuggling market, including comparisons with other illicit or analogous 
markets, to help guide decisions about allocating resources to efforts 
to target and disrupt human smuggling.
    Improve data collection.--DHS could consider standardizing and 
expanding the range of questions that border officials ask migrants 
during interviews to seek more consistent and detailed information from 
migrants about smugglers, routes, and payments. Other options include a 
shared portal for data entry chat screens for errors and a randomized 
survey process to facilitate data collection and reduce the burden on 
front-line personnel.

    This brief describes research conducted within the Homeland 
Security Operational Analysis Center (HSOAC) and documented in ``Human 
Smuggling and Associated Revenues: What Do or Can We Know About Routes 
From Central America to the United States?'', by Victoria A. 
Greenfield, Blas Nunez-Neto, Ian Mitch, Joseph C. Chang, and Etienne 
Rosas, RR-2852-DHS, 2019 (available at www.rand.org/t/RR2852). To view 
this brief online, visit www.rand.org/t/RB10057. HSOAC is an FFRDC 
operated by the RAND Corporation under contract with the Department of 
Homeland Security. The results presented here do not necessarily 
reffect official DHS opinion or policy. For more information on HSOAC, 
see www.rand.org/hsoac.
                                 ______
                                 
  Statement of Leon N. Wilmot, Chairman, Southwestern Border Sheriffs 
                               Coalition
             we must secure our southern border with mexico
    There has been and will likely continue to be much debate about 
border security and how to achieve it. Sheriffs stand united and are 
crystal clear in stating; our Southern Border with Mexico must be 
secured. As the chief law enforcement officers in our respective 
counties, we have witnessed the societal costs of the lack of border 
security. We have heard political leaders of all stripes talk about 
securing the border with little consequence. Today, many portions of 
our border with Mexico are not secure in any meaningful way. Our Ports 
of Entry lack the staffing and technology necessary to be effective 
deterrents to transnational crime. Equally problematic is allowing such 
a significant issue to be mired in endless political debate and 
partisan divide. It is time, past time, to move forward with meaningful 
border security.
                      the case for border security
    There are three unimpeachable reasons that without respect to 
political ideology we should embrace in support of the need to secure 
immediately our border with Mexico. They are public safety, National 
security, and human rights.
    Public Safety.--The lack of a secure border presents a public 
safety problem, not only for our counties but also for our Nation. The 
porous border is exploited by transnational crime organizations to 
engage in drug and human trafficking. We have a public health crisis 
with respect to illicit drug use that is leading to overdose deaths and 
lifetime addiction. The public safety threat of drug trafficking is 
significant and the societal costs are staggering. Human traffickers 
exploit migrants criminally, sexually, and financially. Criminals and 
gang members posing as migrants can and do use the lack of border 
security to enter our country to further their criminal behavior. We 
have ample evidence of this occurring. The lack of a secure border is 
an undeniable public safety crisis.
    National Security.--We simply do not know who is coming across our 
border. We know there are bad actors from hostile nations that wish us 
harm. This is not a political statement, but rather a factual one. The 
lack of border security can be leveraged by those wishing us harm to 
come into our country undetected. The lack of border security is an 
undeniable National security concern.
    Human Rights.--Encouraging migrants to make the dangerous journey 
to our border and then attempt to cross into remote areas of our 
country is not compassionate public policy. Southwest Border deputies 
recover hundreds of bodies a year in remote areas of our counties. 
Migrants die due to the harsh environment or at the hands of alien 
smugglers. Many walk hundreds of miles from Central America, some with 
children in tow, to get to the border in hope of a better life. They 
are led to believe they can simply walk in to the United States. This 
leads to human rights issues along the border and even deaths. People 
in many parts of the world face desperate conditions Americans can 
hardly imagine. They seek a better life for themselves and their 
families. A secure border, along with more sensible legal immigration 
policies, would dissuade this dangerous and often deadly behavior. The 
lack of border security is an undeniable human rights issue.
    Sheriffs have been, and will remain, consistent in their stance on 
border security. Let us reiterate and be absolutely clear, we need to 
secure our Southern Border with Mexico immediately for public safety, 
National security, and human rights.
                        how to secure the border
    There has been much focus on ``The Wall.'' The term ``The Wall'' 
has become synonymous with border security. This term has become a 
lightning rod of division that has detracted, more than added, to 
thoughtful approaches to securing our border. ``The Wall'' is a sound 
bite, not a cogent public policy position.
    The U.S./Mexico border is nearly 2,000 linear miles. It presents 
topography, environmental and land use challenges to what might be 
considered a traditional wall. There are mountains, waterways, Native 
American Reservations, and environmentally sensitive areas where 
traditional physical barriers will be difficult, if not impossible, to 
construct. Some areas are very remote and lack the supporting 
infrastructure to facilitate a massive construction project of this 
scale. Even if properly funded and enjoying wide-spread public support, 
it would take many years to construct a wall across the entire border 
with Mexico. We cannot wait for years and be hostage to the future 
whims of subsequent political leadership to secure our border. The time 
is now.
    There are many places where physical barriers make sense and are in 
fact the best solution to securing the border. They should be 
constructed without delay. In other locations, we need to turn to 
technology, which thanks to modern advances is robust and effective. In 
other areas, we need more human resources to ensure security. Likely, 
in all locations we will need some blend of physical barriers, 
technology, and human resources to be successful.
    The ultimate goal of these efforts should be the complete and total 
operational security of our Southern Border. Endless debate about what 
constitutes a ``wall'' and who pays for it does little to advance much-
needed border security.
    As we discuss border security, we need to remember the importance 
of addressing our Ports of Entry (POE). POEs are not being discussed 
enough and are a major vulnerability. We have to ensure security while 
still supporting the effective flow of legitimate transnational 
commerce. Commerce with Mexico through the POEs is vital to the economy 
of the United States and pumps billions into our economy. Allowing 
citizens the ability to cross into the United States to engage in 
legitimate commerce is also vital to the economy of border regions. The 
POEs need better staffing and technology to support the efficient flow 
of legitimate transnational commerce while having the ability to detect 
and interdict illegitimate/criminal transnational activity.
    We should not let partisan politics stand in the way of securing 
the border. It is clear we have done so for many decades and through 
several administrations. We need to secure the border for public 
safety, National security, and human rights reasons. The mechanism of 
how this is done is far less important to sheriffs than getting it 
done. The idea that a wall is the only solution because it is permanent 
is misguided. A wall that is not monitored, enforced, or maintained is 
only an impediment, not real security.
                   proactive immigration enforcement
    We support the increased attention given to the border and welcome 
additional Federal resources to handle the immigration situation. 
However, sheriffs neither have the capacity to engage in proactive 
enforcement of Federal immigration laws, nor is it the responsibility 
of local law enforcement to engage in enforcement of Federal 
immigration violations. Federal authorities best address these 
violations of Federal law. That being stated, sheriffs are committed to 
cooperation and collaboration with all our Federal law enforcement 
partners.
    We value these relationships with our Federal partners and we 
remain steadfast in working together for the safety and security of our 
citizens that we serve.
                                closing
    Sheriffs fully support efforts to secure our border. Moreover, we 
demand action on this issue. There are compelling and undeniable 
reasons to do so. We need to move forward and secure our border 
immediately. The investment made in doing so will be returned many 
times over in reduced crime, reduced illegal drug use, and a reduction 
of other societal and humanitarian costs. Sheriffs are committed to 
providing the highest level of public safety services to all people of 
our counties. We proactively attack crime problems and criminal 
behavior without regard to the immigration status of the criminals 
involved and will continue to do so.

    Miss Rice. Hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
